<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2012 BUDGET REQUEST FOR THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
 THE PRESIDENT'S FISCAL YEAR 2012 BUDGET REQUEST FOR THE DEPARTMENT OF 

                           HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 3, 2011

                               __________

                            Serial No. 112-6

                               __________

       Printed for the use of the Committee on Homeland Security

                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
72-217                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Donna M. Christensen, U.S. Virgin 
Tim Walberg, Michigan                    Islands
Chip Cravaack, Minnesota             Danny K. Davis, Illinois
Joe Walsh, Illinois                  Brian Higgins, New York
Patrick Meehan, Pennsylvania         Jackie Speier, California
Ben Quayle, Arizona                  Cedric L. Richmond, Louisiana
Scott Rigell, Virginia               Hansen Clarke, Michigan
Billy Long, Missouri                 William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Vacancy
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security.......................................................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     2
The Honorable Blake Farenthold, a Representative in Congress From 
  the State of Texas:
  Prepared Statement.............................................     3
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California:
  Prepared Statement.............................................     4

                               Witnesses

Hon. Janet Napolitano, Secretary, Department of Homeland 
  Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7

                                Appendix

Questions From Chairman Peter T. King............................    47
Questions From Honorable Blake Farenthold........................    52
Questions From Honorable Laura Richardson........................    54


 THE PRESIDENT'S FISCAL YEAR 2012 BUDGET REQUEST FOR THE DEPARTMENT OF 
                           HOMELAND SECURITY

                              ----------                              


                        Thursday, March 3, 2011

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:32 a.m., in Room 
311, Cannon House Office Building, Hon. Peter T. King [Chairman 
of the committee] presiding.
    Present: Representatives King, Lungren, Rogers, McCaul, 
Bilirakis, Miller, Walberg, Cravaack, Meehan, Quayle, Rigell, 
Long, Duncan, Farenthold, Brooks, Thompson, Sanchez, Jackson 
Lee, Cuellar, Clarke of New York, Richardson, Davis, Richmond, 
Clarke of Michigan, and Keating.
    Chairman King [presiding]. The Committee on Homeland 
Security will come to order.
    The committee is meeting today to hear testimony from 
Secretary Janet Napolitano relating to the President's fiscal 
year 2012 budget request for the Department of Homeland 
Security.
    I would advise the Members that the Secretary's office has 
notified us in advance that she has a commitment to be at the 
White House, and she must leave the hearing before noon. In 
fairness to the Secretary, she has rearranged her schedule to 
be here today, because we had to cancel out 2 weeks ago when we 
had a whole series of votes on the floor all day.
    So, Secretary, I want to thank you for adjusting your 
schedule for us. We will certainly have the hearing done in 
time for you to be at the White House.
    Today's hearing is, as I said, to address the President's 
budget for 2012. In a time of budget restraint and cuts have to 
be made, I actually commend the Secretary for putting forth a 
budget which I believe, while obviously we have certainly 
disagreements with it, is very much on target and is trying to 
accommodate the needs for cuts and also to protect our Nation.
    We saw just last week the importance of this, when we saw 
the arrest of Aldawsari, a Saudi Arabia national in Texas. This 
was another reminder of how serious the threat to our Nation 
is.
    Secretary, in your appearance here on February 9, you said 
that our Nation is at its highest level of terrorist threat 
since September 11, 2001, and that is why to me we have to 
always equate Homeland Security with National security. 
Whatever money can be saved as far as programs and grants, et 
cetera, would be offset immediately, if we should see a 
successful attack launched in the United States. Apart from the 
tragic loss of human life, the devastating impact on our 
economy would be there as well.
    I am not going to make a full 5-minute statement, because I 
think it is important to get on, but I would say in view of the 
threats against the country and the deficit crisis we face, if 
you would in the course of your testimony specifically address 
why you make certain cuts, why you kept certain programs going 
forward as they are, how you think that does accommodate the 
threats that we face.
    For instance, you and I have discussed the issue of dirty 
bomb attacks over the years, and I certainly commend the 
Secretary for including the Secure the Cities initiative in the 
budget, which will affect cities across our Nation.
    Also, a concern I do have, though, is the cuts that were 
made as far as border protection in your budget--also in the 
Republican budget, so I am not trying to make a partisan issue 
here. But do you think that considering the importance we have 
attached to border security in recent years, whether or not 
there is sufficient funding in your budget to secure the border 
and to go forward with some of the significant movements that 
have been made under your watch?
    Also, the whole issue of the Saudi national who was 
arrested last week--do you feel that more should be done with 
visa analysis? I know the State Department is involved in that, 
but also, obviously, the Department of Homeland Security is 
involved as well with the large numbers of foreign students in 
our country. We do try to encourage that, but at the same time, 
should there be more of a level of surveillance, more of a 
level of scrutiny when they are coming into the country, to try 
to avoid the situations we saw last week?
    In closing, of course, we have to express our thoughts and 
prayers to the family of the ICE agent, Jaime Zapata, who was 
murdered, killed several weeks ago, as well as his partner, 
Victor Avila. I just want you to know that on both sides of the 
aisle the committee, obviously, our thoughts and prayers go out 
to them.
    I look forward to the testimony today. As I said, I know 
the tough job you have. Whether or not we always agree, there 
is no doubt of your commitments and I think that the good-faith 
efforts that are made in this budget is an example of that, and 
I hope we can have an honest dialogue as we go forward.
    With that, I yield back the balance of my time and I 
recognize the Ranking Member of the committee, the gentleman 
from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much Mr. Chairman and today, 
as you know, we are here to receive testimony from Secretary 
Napolitano about the DHS budget request for fiscal year 2012.
    While I am keenly interested in the programs and plans that 
the Secretary has in mind for the next fiscal year, there are 
two potentially devastating developments outside this budget 
request that demand attention.
    First, we have the matter of the fiscal year 2011 budget. 
The 112th Congress has not produced any of the 12 
appropriations bills needed to fund the Government. Instead, to 
keep the Government operating, the House leadership has chosen 
to kick the can down the road with continuing resolution after 
continuing resolution. H.R. 1 as approved by the House would 
reduce funding for the Department of Homeland Security by $1.1 
billion, or 3 percent, in the middle of the fiscal year.
    My colleagues on the other side of the aisle have 
consistently emphasized the business community's need for 
predictability and certainty. Yet the same principle does not 
seem to extend to the public sector and the operations of 
Government. Surely, DHS has a right to expect some 
predictability and certainty as it pursues its counterterrorism 
and homeland security activities.
    Turning to my second concern, there is a very real threat 
that the funding for DHS operations for the next fiscal year 
2012 will plunge to 2006 levels. My staff provided an analysis 
for how DHS' fiscal year 2012 budget would be negatively 
impacted by H.R. 408, the bill put forward by the Republican 
Study Committee.
    The picture it presents is potentially devastating to the 
Department. DHS' budget would be cut by $10.7 billion. This 
proposal would mean that Customs and Border Protection would 
lose $3 billion. Over 8,200 Border Patrol agents or 2,800 CBP 
officers will have to go. So much for operational control.
    It would also require that the Federal Air Marshal's budget 
be cut by 20 percent, jeopardizing the security of the flying 
public. Our efforts to address one of the Nation's greatest 
threats, cyber attacks from rogue nations, terrorists, and lone 
wolf activists, would be severely hampered also. NPPD, the home 
of DHS' cybersecurity operations, would be cut by $275 million.
    The Coast Guard, which protects our Nation's waterways, 
rescues boaters in distress and was the first to respond to the 
Deepwater Horizon oil spill, will have to eliminate over 2,700 
positions. The list goes on and on. I invite those who have an 
interest in this analysis to go to my committee's website.
    Madam Secretary, we all have a stake in DHS getting the 
resources it needs to keep the homeland secure.
    The President also recognizes the importance of DHS' role. 
Even in these austerity budgetary times, under the President's 
budget, DHS will receive a slight increase. That said, I do 
have some questions about the proposal to make significant cuts 
for first responder grants. I also want to hear from you about 
the proposed cuts in University Programs.
    Before I yield back, I would like to note for the record my 
deep concern that H.R. 1, the continuing resolution approved by 
the House could create the kind of budgetary sinkhole that will 
swallow many of the quality proposals that you are here to 
present.
    I yield back.
    Chairman King. Thank you, Ranking Member.
    [The statement of Hons. Farenthold and Richardson follow:]
              Prepared Statement of Hon. Blake Farenthold
    Thank you, Mr. Chairman and welcome Secretary Napolitano.
    As we are all aware, a porous U.S.-Mexico border poses one of the 
greatest threats to all Americans in terms of crime and terrorism. 
Safeguarding the U.S. Southern border is one of the most complex and 
demanding homeland security challenges. Texas alone shares a 1,254-mile 
international border with Mexico--64 percent of the U.S.-Mexico 
frontier.
    Texas' immediate proximity to Mexico poses security challenges 
related to criminal elements that are based in Mexico but who focus 
their criminal efforts in the United States--principally Mexican 
cartels and gangs. These Mexican organized crime cartels and gangs 
exploit the porous border to smuggle drugs and humans into the United 
States. Organized criminals such as the Texas Mexican Mafia, the Texas 
Syndicate, and Los Zetas have increasingly been linked to acts of 
violence in both Mexico and the United States. Violence in northern 
Mexico has been on the rise as cartels become more powerful, and a 
significant law enforcement presence along the border is critical to 
prevent spillover violence.
    Recently, two immigration and Custom Enforcement (ICE) Officers 
were shot while working in Mexico. Special Agent Special Agent Victor 
Avila was shot twice in the leg and is still recovering. Tragically 
Special Agent Jaime Zapata was fatally wounded during the attack. We 
have also witnessed the tragic murder of David Hartley who was murdered 
by pirates while jet skiing on Falcon Lake which straddles the United 
States and Mexico.
    In addition to Mexico's domestic criminals, a porous U.S.-Mexico 
border presents an opportunity for terrorists to enter the United 
States undetected. Since March 2006, 739 special interest aliens from 
countries with known terrorist presence have been apprehended crossing 
illegally into Texas. On January 27, U.S. Border Patrol agents arrested 
Said Jaziri, a controversial Muslim cleric who was deported from Canada 
to Tunisia 3 years ago and was caught trying to sneak into California 
while hiding in the trunk of a car.
    Madame Secretary, I look forward to hearing your testimony in 
regards to the Department's strategic goals, performance objectives, 
and overall priorities on how to secure the U.S. Southern border as 
reflected in the President's fiscal year 2012 budget request.
                                 ______
                                 
              Prepared Statement of Hon. Laura Richardson
                           February 17, 2011
    I would like to thank Chairman King and Ranking Member Thompson for 
holding this hearing today on reviewing the President's fiscal year 
2012 budget request for the Department of Homeland Security. I also 
thank Secretary Napolitano for appearing before the committee today, 
and I look forward to hearing your testimony.
    I appreciate the cooperation that the Department of Homeland 
Security has given to this committee, and I would be remiss if I didn't 
thank you, Secretary Napolitano for your leadership at the Department 
of Homeland Security. You have been very proactive in combating 
potential threats against our Nation.
    The 37th Congressional District of California, which I am 
privileged to represent, has a vital interest in ensuring our homeland 
security needs are adequately funded. My district is located in 
Southern California, which is no stranger to natural disasters ranging 
from earthquakes to mudslides to wildfires. The 37th district is also 
home to many high-value terrorist targets, such as the Port of Long 
Beach, oil refineries, gas treatment facilities, and petro chemical 
facilities.
    I was pleased to see that the President's fiscal year 2012 budget 
increased funds for border security, and also invests in advanced 
screening technologies in our Nation's airports. The President's budget 
also helps defend our Federal networks against cyber-threats and 
attacks. I also support the increased funding to the Coast Guard for 
the construction of the Fast Response Cutters and Maritime Patrol 
Aircraft.
    I am concerned that the President's budget seeks to eliminate the 
Emergency Operations Centers operated by FEMA. With the Port of Long 
Beach, the city of Los Angeles, various chemical and petroleum 
facilities, a centralized emergency response center would be vital to 
my district and the surrounding communities. I hope that we can work to 
restore funding and I look forward to working with DHS and my 
colleagues on possible solutions to address cutting funding for this 
essential program.
    Additionally, the proposed cuts in H.R. 1 would have a devastating 
impact on our Nation's critical emergency response programs. 
Specifically, the proposed cuts would have eliminated funding for the 
SAFER program and would have reduced funding for the critical FIRE 
program by $90 million. By introducing such draconian cuts, these 
proposals could jeopardize our Nation's first responders and 
firefighters and substantially hinder our National emergency response 
infrastructure. I look forward to working with my colleagues and the 
Department of Homeland Security on these very important issues.
    Once again Mr. Chairman, I thank you for holding this hearing and I 
yield back the balance of my time.

    Chairman King. Madam Secretary, I want to thank you again 
for being here with us. This is your third year of service as 
Secretary of Homeland Security. It probably feels like 300 at 
times, but it is good to have you back.
    I recognize Secretary Napolitano.

 STATEMENT OF HON. JANET NAPOLITANO, SECRETARY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Secretary Napolitano. Well, thank you Mr. Chairman, 
Representative Thompson and Members of the committee. First of 
all, I appreciate the flexibility of your schedule with this 
hearing this morning. President Calderon of Mexico will be at 
the White House at noon, and that is what causes the schedule 
jam, so very grateful for your flexibility.
    I, too, will be somewhat brief in my opening comments in 
order to reserve, or save time for the Member's questions, but 
I think it is fair to say that the demands on the Department 
have never been greater. This is especially true as we remember 
those at the Department who have given their lives in service 
to our mission, including most recently, Border Patrol Agent 
Brian Terry and ICE Special Agent Jaime Zapata.
    Now, Mexico is leading the criminal investigation into the 
death of Agent Zapata. We are supporting them through a joint 
DOJ/DHS Task Force that the Attorney General and I announced 2 
weeks ago. Recently, Mexican authorities have announced that 
they have apprehended some of the alleged killers of Agent 
Zapata, and we are conducting a number of operations in the 
United States related to the drug cartels from Mexico.
    But I can speak for the entire administration when I say we 
are not only saddened by the loss of an agent, we are outraged 
by this act of violence against an officer of the United 
States. Make no mistake, justice will be brought to those 
involved. We owe nothing less to the memory of Agent Zapata and 
to those who are still on the job in Mexico.
    Now, the loss of these brave agents is a stark reminder of 
the sacrifices made by the men and women of DHS every day. It 
also strengthens our resolve to continue to do everything in 
our power to protect against, mitigate, and respond to threats 
and to make our Nation more resilient.
    Today's threat picture features adversaries who evolve 
quickly and are determined to strike us here at home, from the 
aviation system and the global supply chain to surface 
transportation, to critical infrastructure, to our cyber 
networks.
    President Obama's fiscal year 2012 budget for the 
Department allows us to continue to meet these evolving threats 
and challenges by prioritizing our essential operational 
requirements, while reflecting an unprecedented commitment to 
fiscal discipline that maximizes the effectiveness of every 
dollar we receive.
    Reflecting the current fiscal environment in building the 
fiscal year 2012 budget, all DHS components identified savings 
associated with the Department's 33 efficiency review 
initiatives. We cut administration and overhead, including my 
office's budget, by over $800 million.
    We also delayed construction of FEMA at the new DHS 
Headquarters at St. Elizabeth's, and we deferred a number of 
office co-locations. That accounts, Mr. Chairman, for some of 
the numbers at ICE that make it look like that budget is going 
down. That is almost all related to building, building 
maintenance, and not having office co-locations that we 
otherwise would have.
    Now, my written statement includes the comprehensive list 
of the operational priorities in the budget. Today I will only 
highlight a few.
    Preventing terrorism and enhancing security was the 
founding mission of the Department. It remains our top priority 
today. This budget safeguards transportation modes through a 
layered detection system, including the deployment of 
additional transportation security officers, behavioral 
detection officers, canine teams and advanced imaging 
technology machines at domestic airports, while expanding watch 
list vetting through the Secure Flight Program and enhancing 
screening and targeting of international travelers before they 
board U.S.-bound flights through the Immigration Advisory 
Program.
    This budget also strengthens surface transportation 
security by supporting 12 new visible and mobile prevention and 
response, otherwise known as VIPR Teams, which conduct 
operations throughout the transportation sector to prevent 
potential terrorist activity.
    The request also provides funding for Securing the Cities 
Program, to protect our highest-risk cities from a radiological 
or nuclear attack, and makes a significant investment in the 
National Bio and Agro Defense Facility, which will provide 
enhanced diagnostic capabilities to protect our country from 
foreign animal and emerging diseases.
    The request expands support for the National network of 
State and local fusion centers, to provide local law 
enforcement with the tools to address threats to our 
communities.
    Now to secure and manage our borders, the request continues 
the administration's historic border security efforts by 
supporting 21,370 Border Patrol agents and 21,186 U.S. Customs 
and Border Protection officers, both all-time highs.
    This budget also includes $242 million for the continued 
deployment of proven, effective surveillance technology along 
the highest-trafficked areas of the Southwest border to better 
meet the operational requirements of our agents on the front 
lines.
    For the Northern border, this budget request supports 
investments in technology tailored to the maritime and cold 
weather environment. For our Nation's maritime borders, this 
budget includes funding to continue the essential National 
Security Cutter Program and it makes historic investments to 
recapitalize the Coast Guard's aging assets, including six fast 
response cutters and 40 response boats.
    This budget also continues the Department's focus on SMART, 
an effective enforcement of our Nation's immigration laws while 
streamlining and facilitating the legal immigration process. 
Building on our record over the past 2 years, the Department 
will continue to prioritize the identification and removal of 
criminal aliens who pose a threat to public safety and target 
employers who knowingly and repeatedly break the law.
    This request enables ICE to fund 33,400 detention beds, 
remove over 200,000 criminal aliens and deploy secure 
communities to 96 percent of all jurisdictions Nationally in 
fiscal year 2012 wile promoting compliance with worksite-
related laws through criminal prosecution of egregious 
employers, Form I-9 inspections and continued expansion and 
enhancement of e-Verify.
    The request also funds integration efforts, including 
programs supporting English language and citizenship education, 
and continues the detention reform efforts currently under way.
    Now, to safeguard and secure cyberspace, this budget 
increases resources to identify and reduce vulnerabilities to 
our Nation's key cyber networks. The request includes 
significant investments to expedite the deployment of Einstein 
3, to prevent and detect intrusions on Government computer 
systems, increase Federal network security, and continue to 
develop a robust cybersecurity workforce.
    Now, to ensure resilience to disasters, the budget request 
focuses on moving resources out of Washington, DC, and into the 
hands of State and local responders by sustaining Federal 
funding for State and local preparedness grants, providing over 
$3.8 billion in fiscal year 2012.
    This funding includes $670 million for assistance to 
firefighter grants, and that includes $420 million to re-hire 
an estimated 2,300 laid-off firefighters and retain veteran 
first responders.
    To lead and support a central National and economic 
security effort, this budget also expands the Coast Guard's 
operational capacity by funding 50,682 military and civilian 
positions and establishing the Coast Guard's first incident 
management response team--assistance team, excuse me, which 
will be deployed rapidly to support incidents of National 
significance.
    Mr. Chairman, this budget is the culmination of a major 
first-of-its-kind effort by the Department through their 
Quadrennial Homeland Security Review and the associated bottom-
up review to align our resources with a comprehensive strategy 
to ensure a safe, secure, and resilient homeland, while making 
an unprecedented commitment to fiscal discipline.
    Chairman King, Representative Thompson, and Members of the 
committee, thank you for this opportunity to present some 
testimony to you. I have a more complete statement that I asked 
to be included in the record. I am happy to answer questions.
    [The statement of Secretary Napolitano follows:]
              Prepared Statement of Hon. Janet Napolitano
                             March 3, 2011
    Chairman King, Ranking Member Thompson, and Members of the 
committee: Let me begin by saying thank you to this committee for the 
strong support you have provided me and the Department over the past 2 
years. I look forward to continuing to work with you in the coming year 
to protect the homeland and the American people.
    I am pleased to appear before the committee today to present 
President Obama's fiscal year 2012 budget request for the Department of 
Homeland Security (DHS).
    The demands on DHS have never been greater and the threats we face 
pose new challenges that require an innovative and focused response. 
Today's threat picture features an adversary who evolves and adapts 
quickly and who is determined to strike us here at home--from the 
aviation system and the global supply chain to surface transportation 
systems, critical infrastructure, and cyber networks. The Department's 
fiscal year 2012 budget allows us to continue to meet these evolving 
threats and challenges by prioritizing our essential operational 
requirements--while reflecting an unprecedented commitment to fiscal 
discipline that maximizes the effectiveness of every security dollar we 
receive.
    Reflecting the current economic environment, we are preserving 
essential front-line operations and bolstering our operational strength 
by decreasing administration and overhead, including the overall budget 
for the Office of the Secretary and Executive Management. All DHS 
Components identified reductions associated with the Efficiency Review 
initiatives currently underway as well as administrative savings 
totaling more than $800 million to strengthen mission-critical 
activities across the Department. Savings were accomplished through 
efficiencies in acquisition, asset, and real property management as 
well as employee vetting/credentialing, hiring/on-boarding and 
information technology; and administrative savings through reductions 
to professional services contracts, printing, supplies and materials, 
travel, and training. The Department also proposes to delay 
construction of the Federal Emergency Management Agency (FEMA) 
headquarters at St. Elizabeths as well as the deferral of other office 
co-locations, and building maintenance and enhancements to prioritize 
front-line security operations.
                    fiscal year 2012 budget request
    The fiscal year 2012 budget request for DHS is $57.0 billion in 
total funding, $47.4 billion in gross discretionary funding, and $43.2 
billion in net discretionary funding.\1\
---------------------------------------------------------------------------
    \1\ For purposes of comparison to prior year funding levels, 
funding for Overseas Contingency Operations and National Science 
Foundation transfers are not included in these figures.
---------------------------------------------------------------------------
    DHS's fiscal year 2012 budget request is the culmination of a 
major, first-of-its-kind effort undertaken by the Department to align 
DHS resources with a comprehensive strategy to meet our Nation's 
homeland security needs. Last year, DHS completed the first ever 
Quadrennial Homeland Security Review (QHSR), which established a 
unified, strategic framework for homeland security missions and goals, 
as well as the first ever Bottom-Up Review (BUR), which aligned DHS 
programmatic activities and organizational structure to better serve 
those missions and goals. The third and final step of this process is 
the fiscal year 2012 budget submission, which begins the next phase in 
strengthening DHS efforts to ensure a safe, secure, and resilient 
homeland.
    This process identified six DHS missions, each of which is 
strengthened by this budget:
    Mission 1: Preventing Terrorism and Enhancing Security.--Protecting 
the United States from terrorism is the cornerstone of homeland 
security. DHS's counterterrorism responsibilities focus on three goals: 
preventing terrorist attacks; preventing the unauthorized acquisition, 
importation, movement, or use of chemical, biological, radiological, 
and nuclear materials and capabilities within the United States; and 
reducing the vulnerability of critical infrastructure and key 
resources, essential leadership, and major events to terrorist attacks 
and other hazards.
    Mission 2: Securing and Managing Our Borders.--DHS secures the 
Nation's air, land, and sea borders to prevent illegal activity while 
facilitating lawful travel and trade. The Department's border security 
and management efforts focus on three interrelated goals: effectively 
securing U.S. air, land, and sea borders; safeguarding and streamlining 
lawful trade and travel; and disrupting and dismantling transnational 
criminal and terrorist organizations.
    Mission 3: Enforcing and Administering Our Immigration Laws.--DHS 
is focused on smart and effective enforcement of U.S. immigration laws 
while streamlining and facilitating the legal immigration process. The 
Department has fundamentally reformed immigration enforcement, focusing 
on identifying and removing criminal aliens who pose a threat to public 
safety and targeting employers who knowingly and repeatedly break the 
law.
    Mission 4: Safeguarding and Securing Cyberspace.--By statute and 
Presidential directive, DHS has the lead for the Federal Government to 
secure civilian government computer systems and works with industry and 
State, local, Tribal, and territorial governments to secure critical 
infrastructure and information systems. DHS analyzes and reduces cyber 
threats and vulnerabilities; distributes threat warnings; and 
coordinates the response to cyber incidents to ensure that our 
computers, networks, and cyber systems remain safe.
    Mission 5: Ensuring Resilience to Disasters.--DHS provides the 
coordinated, comprehensive Federal response in the event of a terrorist 
attack, natural disaster, or other large-scale emergency while working 
with Federal, State, local, and private sector partners to ensure a 
swift and effective recovery effort. The Department's efforts to build 
a ready and resilient Nation include fostering a community-oriented 
approach; bolstering information sharing; improving the capability to 
plan; and providing grants and training to our homeland security and 
law enforcement partners.
    Mission 6: Providing Essential Support to National and Economic 
Security.--DHS leads and supports many activities that provide 
essential support to National and economic security including, but not 
limited to: Maximizing collection of customs revenue; maintaining the 
safety of the marine transportation system; preventing the exploitation 
of children; providing law enforcement training; and coordinating the 
Federal Government's response to global intellectual property theft. 
DHS contributes in many ways to these elements of broader U.S. National 
and economic security while fulfilling its other five homeland security 
missions.
    The following are highlights of the fiscal year 2012 budget:
              preventing terrorism and enhancing security
  <bullet> Advanced Imaging Technology (AIT).--$105.2 million and 535 
        positions are included for the Transportation Security 
        Administration (TSA) to purchase, install, and operate 275 AITs 
        at airport checkpoints. The fiscal year 2012 request, combined 
        with prior requests, will result in 1,275 AIT units deployed by 
        the end of 2012. The requested funding covers the cost of new 
        Transportation Screening Officers and managers to operate the 
        new AITs, as well as the associated support and airport 
        management costs. Continuing to increase AIT deployments while 
        ensuring privacy safeguards are in place is critical to address 
        the current threat by safely screening passengers for metallic 
        and non-metallic threats--including weapons, explosives, and 
        other objects concealed under layers of clothing.
  <bullet> Explosives Detection Systems (EDS).--$273 million is 
        requested to support the recapitalization and deployment of 
        state-of-the-art EDS for checked baggage to efficiently screen 
        baggage for explosives, reducing the number of re-scans and 
        physical bag searches. Beginning in fiscal year 2012, over 800 
        EDS in our largest airports will exceed their planned 10-year 
        service life.
  <bullet> Assistant Field Security Directors--Law Enforcement (AFSD-
        LEs).--Requested funding of $22.5 million supports 82 AFSD-LEs 
        currently deployed and provides 22 additional AFSD-LEs for 
        major airports, where they serve as the primary liaison to 
        local law enforcement as AIT expansion continues.
  <bullet> Federal Air Marshal Service (FAMS).--The fiscal year 2012 
        budget requests funds to maintain the FAMS surge deployment 
        levels for domestic and international flight coverage that 
        began in response to the attempted terrorist attack on December 
        25, 2009. Members of the FAMS, TSA's law enforcement entity, 
        are deployed on flights around the world and the United States 
        based on risk in order to detect, deter, and defeat hostile 
        acts targeting U.S. air carriers, airports, passengers, and 
        crews.
  <bullet> Enhanced Watch List Vetting.--$12.4 million is proposed for 
        maintaining the expanded watch list vetting initiative, which, 
        through the Secure Flight program, enables TSA to identify 
        individuals who may present a threat to passenger air travel. 
        Through Secure Flight, TSA pre-screens passenger name, date of 
        birth, and gender against terrorist watch lists before 
        passengers receive their boarding passes. In addition to 
        facilitating secure travel for all passengers, the program 
        helps prevent the misidentification of passengers who have 
        names similar to individuals on Government watch lists.
  <bullet> Immigration Advisory Program (IAP).--A total request of 
        $14.1 million will permit the IAP to expand in Paris, Abu 
        Dhabi, Dubai, and Amman. IAP is a part of Custom and Border 
        Protection's (CBP) layered risk-based security approach, which 
        includes working with international partners to post CBP 
        officers at foreign airports and use advanced targeting and 
        passenger analysis information to identify high-risk travelers 
        at foreign airports before they board U.S.-bound flights.
  <bullet> Behavior Detection Officers (BDOs).--The fiscal year 2012 
        budget request of $236.9 million funds 3,336 BDOs, which 
        includes 350 new positions. BDOs serve as an additional layer 
        of security in airports by providing a non-intrusive means of 
        identifying individuals who may pose a risk of terrorism or 
        criminal activity.
  <bullet> Canine Teams.--Requested funding of $125.7 million allows 
        TSA to sustain the deployment of 900 canine teams supported by 
        reallocations made under the continuing resolution, providing 
        an important layer of security to complement passenger 
        checkpoint screening at airports, assist in air cargo 
        screening, and enhance security in the mass transit 
        environment.
  <bullet> Visible Intermodal Prevention and Response (VIPR) Teams.--
        $109 million requested supports 37 VIPR teams and includes12 
        new multi-modal VIPR Teams proposed in the fiscal year 2012 
        request in addition to the 10 existing teams in aviation and 
        the 15 VIPR teams dedicated to surface transportation added in 
        the fiscal year 2010 budget. VIPR teams are comprised of 
        personnel with expertise in inspection, behavior detection, 
        security screening, and law enforcement for random, 
        unpredictable deployments throughout the transportation sector 
        to deter potential terrorist and criminal acts.
  <bullet> Passenger Security Fee.--The fiscal year 2012 budget 
        reflects a proposal to increase the Aviation Passenger Security 
        Fee by $1.50 per enplanement beginning in 2012. The Aviation 
        Passenger Security fee has not changed since the TSA was 
        established following the events of 9/11, even though the 
        overall cost of aviation security has grown by more than 400 
        percent. The administration's proposal makes progress towards 
        fulfilling the intent of the Aviation and Transportation 
        Security Act to cover the costs of aviation security through 
        fees and not by the general taxpayers.
  <bullet> BioWatch Gen 1/2.--$90 million is requested to continue 
        operating the Gen 1/2 BioWatch detection network, a Federally-
        managed, locally-operated, Nation-wide bio-surveillance system 
        designed to detect the intentional release of aerosolized 
        biological agents in more than 30 cities.
  <bullet> BioWatch Gen-3.--The fiscal year 2012 budget provides $25 
        million to continue Gen-3 development, which is expected to 
        significantly reduce the time between a release of a biothreat 
        agent and confirmation of that release by BioWatch technology. 
        Operational Testing and Evaluation of Gen-3 technology will 
        begin in one of four test cities in fiscal year 2012 with full 
        deployment expected in fiscal year 2014.
  <bullet> Securing the Cities.--$27 million is requested for Securing 
        the Cities to continue the build-out of the domestic portion of 
        the Global Nuclear Detection Architecture, the multi-layered 
        system of detection technologies, programs, and guidelines 
        designed to enhance the Nation's ability to detect and prevent 
        a radiological or nuclear attack in our highest-risk cities.
  <bullet> Radiological/Nuclear Detection Systems.--The fiscal year 
        2012 budget requests $57 million for the procurement and 
        deployment of Radiation Portal Monitors and Human Portable 
        Radiation Detection Systems, providing vital detection 
        equipment to CBP and the U.S. Coast Guard to scan for 
        radiological and nuclear threats.
  <bullet> Countermeasures and 2012 Presidential Candidate Nominee 
        Protection.--The fiscal year 2012 request funds critical Secret 
        Service operations and countermeasures to protect the first 
        family and visiting dignitaries, including the 2012 
        Presidential campaign and three anticipated National Special 
        Security Events (NSSEs). The budget also restores the Secret 
        Service's base funding--supporting the replacement of 
        protective equipment, vehicles, training of personnel, and 
        other infrastructure to allow the Secret Service to improve the 
        execution of its protective and investigatory missions.
  <bullet> National Network of Fusion Centers.--The fiscal year 2012 
        budget expands support for the National network of fusion 
        centers in order to provide State and local law enforcement 
        with the tools they need to address threats in their 
        communities. The request focuses on integrating and 
        coordinating cross-Department and cross-government interaction 
        with fusion centers focused on enhancing baseline capabilities.
  <bullet> State and Local Law Enforcement Training.--The fiscal year 
        2012 budget provides funding to train 64,000 individual 
        Federal, State, and local law enforcement personnel through the 
        Federal Law Enforcement Training Center and its total budget of 
        $276 million.
  <bullet> National Bio and Agro Defense Facility (NBAF).--$150 million 
        is requested to begin construction of the NBAF, which will 
        serve as a new, state-of-the-art biosafety level 3 & 4 
        facility. Work performed at NBAF will lead to the development 
        of vaccines and anti-virals and enhanced diagnostic 
        capabilities for protecting our country from numerous foreign 
        animal and emerging diseases.
                   securing and managing our borders
  <bullet> CBP Law Enforcement.--The fiscal year 2012 budget supports 
        21,370 Border Patrol agents and 21,186 CBP officers at our 
        ports of entry who work 24/7 with State, local, and Federal law 
        enforcement in targeting illicit networks trafficking in 
        people, drugs, illegal weapons, and money. This reflects the 
        largest deployment of law enforcement officers to the front-
        line in the agency's history. The request annualizes positions 
        supported by the fiscal year 2010 Emergency Border Security 
        Supplemental for the Southwest Border, including 1,000 Border 
        Patrol agents and 250 CBP officers. Funding is provided to 
        support 300 new CBP officers above the fiscal year 2011 budget 
        and additional canine assets to support Port of Entry 
        operations. The request supports the mobile response surge 
        teams created with the Supplemental funding to respond rapidly 
        to emergent situations without depleting Border Patrol staffing 
        from other locations.
  <bullet> New Southwest Border Technology.--$242 million is requested 
        to support the continued deployment of proven, effective 
        surveillance technology along the highest-trafficked areas of 
        the Southwest Border. Funds will be used to procure and deploy 
        commercially available technology tailored to the operational 
        requirements of the Border Patrol, distinct terrain, and 
        population density of each border region. These funds will 
        allow CBP to fully deploy a mix of Integrated Fixed Towers and 
        other mobile equipment in three of the five Border Patrol 
        Stations' areas of responsibility in Arizona.
  <bullet> Northern Border Technology.--The request includes $55 
        million to support investments in technology systems which 
        address security needs for the Northern Border maritime and 
        cold weather environment, as well as innovative technology 
        pilots. It will also deploy proven, stand-alone technology that 
        provides immediate operational benefits. These demonstrations 
        and deployments explore how best to integrate various sensors, 
        border security organizations, and mission operations in order 
        to optimize border security in this challenging environment.
  <bullet> CBP Journeyman.--The request includes $229 million to fully 
        fund the increase in journeyman grade level for frontline CBP 
        officers, Border Patrol agents, and CBP agricultural 
        specialists from GS-11 to GS-12.
  <bullet> Tactical Communications (TACCOM).--The fiscal year 2012 
        budget includes $40 million to continue the transition of the 
        TACCOM program to a robust, open architecture system that will 
        increase interoperability with other law enforcement, expand 
        coverage, and improve agent safety in the Houlton, El Paso, 
        Laredo, and Rio Grande Valley sectors.
  <bullet> National Targeting Center--Passenger (NTC-P).--T1 A total of 
        $47 million is requested to enhance CBP's ability to interdict 
        dangerous individuals or terrorists traveling from foreign 
        locations before boarding flights destined for the United 
        States. The funds will be used to hire additional staff and 
        implement enhancements in targeting priorities.
  <bullet> U.S. Coast Guard Recapitalization.--The fiscal year 2012 
        request fully funds the fifth National Security Cutter (NSC), 
        supports 40 Response Boats and six Fast Response Cutters, as 
        well as a sizable investment in the renovation and restoration 
        of shore facilities. The budget also provides resources to 
        ensure that the Coast Guard's aviation fleet is mission-ready 
        through the acquisition of two Maritime Patrol Aircraft, one 
        HH-60 helicopter, and conversion and sustainment projects of 
        multiple aircraft. Funding for the NSC underscores the 
        Department's support of this program which is important to the 
        Coast Guard's long-term recapitalization effort and, most 
        importantly, to allow the Coast Guard to replace its aged, 
        obsolete High Endurance Cutter fleet as quickly as possible. 
        The total request for U.S. Coast Guard Acquisition, 
        Construction, and Improvements is $1.4 billion.
  <bullet> Maritime Safety and Response.--$115.5 million remains in 
        Coast Guard's base resources for 11 Maritime Safety and 
        Security Teams and their associated 921 personnel, who conduct 
        port security activities and provide support to NSSEs.
            enforcing and administering our immigration laws
  <bullet> Detention Beds.--The fiscal year 2012 budget increases U.S. 
        Immigration and Customs Enforcement (ICE) Custody Operations 
        funding by $157.7 million to support 33,400 detention beds and 
        remove more than 200,000 criminal aliens in fiscal year 2012.
  <bullet> Detention Reform.--ICE plans to continue building on its 
        detention reform efforts in fiscal year 2012 by improving 
        detainee access to quality health care, reducing the average 
        length of stay, and facilitating access to family members and 
        legal representation by adding functionality to the recently 
        released on-line detainee locator system.
  <bullet> Worksite Enforcement.--Requested funds continue the 
        Department's focus on worksite enforcement, promoting 
        compliance with worksite-related laws through criminal 
        prosecutions of egregious employers, Form I-9 inspections, 
        civil fines, and debarment, as well as education and compliance 
        tools.
  <bullet> E-Verify.--The fiscal year 2012 request continues support 
        for E-Verify operations and enhancements, including continued 
        funding for new monitoring, compliance, and outreach positions 
        necessitated by program expansion. The continued success of E-
        Verify demonstrated by recent independent reports reflect the 
        administration's commitment to smart, tough, and effective 
        strategies that build a strong foundation upon which immigrants 
        can exercise their rights and responsibilities as Americans.
  <bullet> Secure Communities.--A total of $184 million is requested 
        for Secure Communities--which uses biometric information and 
        services to identify and remove criminal aliens in State 
        prisons and local jails. The $64 million program increase will 
        expand deployment to 96% of all jurisdictions nationally in 
        fiscal year 2012 and provide resources to confirm the 
        identification of an estimated 199,000 more criminal aliens 
        through interoperability in fiscal year 2012 than fiscal year 
        2010 and transport more than 44,000 criminal aliens from State 
        and local jails into the custody of ICE following the 
        completion of their sentences. ICE will work with DHS's Office 
        of Civil Rights and Civil Liberties and the Department of 
        Justice to develop a robust oversight and evaluation process of 
        Secure Communities and to provide training to State and local 
        law enforcement. Secure Communities is on track for Nation-wide 
        deployment by 2013.
  <bullet> Visa Security Program.--The budget requests $29 million to 
        continue the Visa Security Program at current locations. This 
        program enhances National security by preventing terrorists, 
        criminals, and other ineligible applicants from receiving 
        visas.
  <bullet> Immigrant Integration.--The fiscal year 2012 request expands 
        U.S. Citizenship and Immigration Services (USCIS) effort to 
        support immigrant integration efforts, including funding for 
        new programs supporting English language acquisition and 
        citizenship education.
  <bullet> SAVE.--The fiscal year 2012 request continues support for 
        USCIS SAVE operations and enhancements to assist State, local, 
        and Federal agencies in determining individuals eligibility for 
        public benefits based on their immigration status.
  <bullet> USCIS Business Transformation.--The fiscal year 2012 request 
        continues the multi-year effort to transform USCIS from a 
        paper-based filing system to a customer-focused electronic 
        filing system.
                  safeguarding and securing cyberspace
  <bullet> Federal Network Protection.--$233.6 million is requested to 
        expedite the deployment of EINSTEIN 3 to prevent and detect 
        intrusions on computer systems and to upgrade the National 
        Cyber Security Protection System, building an intrusion 
        detection capability and analysis capabilities to protect 
        Federal networks.
  <bullet> Federal IT Security Assessments.--A total of $40.9 million 
        in requested funds will support the Department's efforts to 
        strengthen Federal Network Security of large and small agencies 
        by conducting an estimated 66 network assessments to improve 
        security across the Federal Executive Branch.
  <bullet> Cybersecurity Workforce Needs.--$24.5 million is proposed to 
        provide high-quality, cost-effective virtual cybersecurity 
        education and training to develop and grow a robust 
        cybersecurity workforce that is able to protect against and 
        respond to National cybersecurity threats and hazards.
  <bullet> Cyber Investigations.--The fiscal year 2012 budget continues 
        to support cyber investigations conducted through the Secret 
        Service and ICE, targeting large-scale producers and 
        distributors of child pornography and preventing attacks 
        against U.S. critical infrastructure through Financial Crimes 
        Task Forces.
  <bullet> Cyber Mission Integration.--The fiscal year 2012 request 
        includes $1.3 million to enable DHS to coordinate National 
        cyber security operations and interface with the U.S. 
        Department of Defense's (DOD) National Security Agency (NSA) at 
        Fort Meade, Maryland. This funding will support a landmark 
        memorandum of agreement signed by Secretary Napolitano and 
        Secretary of Defense Robert Gates that aligns and enhances 
        America's capabilities to protect against threats to critical 
        civilian and military computer systems and networks.
  <bullet> Cybersecurity Research.--The fiscal year 2012 request 
        includes an increase of $18 million for the Comprehensive 
        National Cybersecurity Initiative to support research and 
        development projects focused on strengthening the Nation's 
        cybersecurity.
                    ensuring resilience to disasters
  <bullet> State and Local Grants.--The fiscal year 2012 request 
        sustains Federal funding for State and local preparedness 
        grants totaling over $3.8 billion, highlighting the 
        Department's commitment to moving resources out of Washington, 
        DC and into the hands of State and local first responders who 
        are often best-positioned to detect and respond to terrorism, 
        other threats, and natural disasters.
  <bullet> Assistance to Firefighters Grants.--The fiscal year 2012 
        request includes $670 million. Included in this amount are $420 
        million for Staffing for Adequate Fire and Emergency Response 
        (SAFER) Grants to rehire laid-off firefighters and retain 
        veteran first responders--totaling 2,300 firefighter 
        positions--and $250 million for equipment, training, vehicles, 
        and related materials.
  <bullet> Disaster Relief Fund (DRF).--$1.8 billion is requested for 
        the DRF to allow FEMA to continue to address the impacts of a 
        disaster on individuals and communities across the Nation. The 
        DRF provides a significant portion of the total Federal 
        response to victims in Presidentially-declared disasters or 
        emergencies.
  <bullet> Regional Catastrophic Event Planning.--$8.5 million is 
        requested to continue development of catastrophic plans, with a 
        focus on plans for response to biological events and 
        earthquakes.
  <bullet> National Exercises.--FEMA's participation in National Level 
        Exercise-12, an exercise to test FEMA's ability to respond to a 
        catastrophic cyber attack, is funded with $3 million through 
        the request.
  <bullet> Emergency Management Oversight.--The fiscal year 2012 
        request includes $20 million for the Office of the Inspector 
        General to continue its Emergency Management Oversight 
        operations.
     providing essential support to national and economic security
  <bullet> Patrolling the Exclusive Economic Zone.--The Coast Guard 
        patrols the U.S. Exclusive Economic Zone boundary areas to 
        reduce the threat of foreign poaching of U.S. fish stocks and 
        ensure compliance with international living marine resource 
        agreements. The budget includes $47 million to extend the 
        service life of five Medium Endurance Cutters critical in 
        support of this mission.
  <bullet> U.S. Coast Guard Staffing.--The request strengthens the 
        Coast Guard's operational capacity by funding a total of 50,682 
        civilian and military personnel in fiscal year 2012.
  <bullet> Enhancing Maritime Safety.--The fiscal year 2012 budget 
        requests $686.3 million and 4,717 FTEs for the Coast Guard's 
        maritime safety activities. The fiscal year 2012 budget 
        provides 105 new Marine Safety Inspectors and Investigators to 
        staff ship inspections and post-incident investigations.
  <bullet> Enhancing Marine Environmental Protection and Response.--The 
        fiscal year 2012 budget requests $225.2 million and 1,362 FTE 
        to enable the Coast Guard to conduct Marine Environmental 
        Response. This includes 87 new environmental response personnel 
        and creates the Coast Guard's first Incident Management 
        Assistance Team, a highly trained team that will be deployed 
        rapidly to augment the Coast Guard command structure when an 
        incident of National significance occurs.
  <bullet> Investigate Cultural Antiquity Trafficking and Coordinate 
        Repatriation.--The fiscal year 2012 budget continues to support 
        ICE seizures and repatriation of cultural property, art, and 
        antiquities illegally imported into the United States and the 
        investigation of illegal trafficking of artwork, especially 
        works that have been reported lost or stolen.
  <bullet> Forensic Support for Missing and Exploited Children.--
        Funding is requested for the Secret Service to provide forensic 
        support to the National Center for Missing and Exploited 
        Children, which provides state-of-the-art forensics support for 
        investigations involving missing and exploited children and 
        grant funds for activities related to the investigations of 
        missing and exploited children.
  <bullet> Collect Customs Revenue.--Funds are requested to support 
        CBP's role as a revenue collector for the U.S. Treasury--
        customs revenue remains the second-largest source of revenue 
        for the U.S. Government. Customs and Border Protection has set 
        revenue collection as a Priority Trade Issue to ensure 
        effective internal controls that protect the duties and taxes 
        (over $29 billion in 2009) collected for the U.S. Government.
  <bullet> Protect U.S. Intellectual Property Rights.--The fiscal year 
        2012 budget request funds to support CBP's enforcement program 
        to prevent trade in counterfeit and pirated goods, and enforce 
        exclusion orders on patent-infringing and other Intellectual 
        Property Rights violative goods. The ICE HSI Intellectual 
        Property Rights (IPR) Center investigates the smuggling and 
        distribution of counterfeit goods and products that pose risks 
        to public safety and security. Counterfeit pharmaceuticals and 
        critical technology components, such as computer chips for 
        defense systems and airplane equipment, were among the top-
        seized commodities in IPR investigations.
      maturing and strengthening the homeland security enterprise
    Maturing and strengthening the homeland security enterprise--the 
collective efforts and shared responsibilities of Federal, State, 
local, Tribal, territorial, non-governmental, and private-sector 
partners, as well as individuals, families, and communities--is 
critical to the Department's success in carrying out its core missions 
and operational objectives. This includes enhancing shared awareness of 
risks and threats, building capable communities, and fostering 
innovative approaches and solutions through cutting-edge science and 
technology, while continuing to foster a culture of efficiency, 
sustainability in accordance with E.O. 13514 and fiscal responsibility 
and streamline management across the Department.
    While the Department proposes significant cuts to administrative 
support across all components in order to maintain front-line 
operations, the following activities are supported through the fiscal 
year 2012 budget:
  <bullet> St. Elizabeths.--$159.7 million is requested for the St. 
        Elizabeths project. This funding enables DHS to complete the 
        Coast Guard Headquarters facility and to continue work on the 
        National Operations Center. The request, however, will defer 
        the FEMA headquarters consolidation.
  <bullet> Transformation and Systems Consolidation (TASC).--The fiscal 
        year 2012 budget proposes $11 million to fund the TASC program, 
        which supports the modernization of the Department's financial, 
        asset, and acquisition management systems--a key priority for 
        the Department and a step towards addressing recommendations on 
        the GAO High-Risk list.
  <bullet> Acquisition Workforce.--$24.2 million in requested funds 
        will increase the Department's acquisition workforce capacity 
        by 150 positions, including additional systems engineers, 
        program managers, logisticians, and business cost estimators, 
        to ensure operational requirements are properly developed and 
        included in DHS contracts and to provide greater oversight and 
        accountability. This too, is consistent with previous 
        recommendations from the Government Accountability Office and 
        Inspector General.
  <bullet> Information Security and Infrastructure.--$32.3 million is 
        requested to establish a unified email network for DHS-wide 
        use, and provide Single Sign-On and other capabilities. These 
        activities will leverage technologies to strengthen DHS 
        operations and enhance communications with Federal, State, 
        local, and private sector partners.
  <bullet> Coast Guard Housing and Child Care.--The health and welfare 
        of military families is the heart of Coast Guard operational 
        readiness. The fiscal year 2012 budget includes $29 million to 
        address critical housing shortfalls and improve access to 
        affordable, quality child care. These initiatives will ensure 
        Coast Guard members can maintain both strong families and a 
        high state of readiness.
                               conclusion
    The fiscal year 2012 budget proposal reflects this administration's 
strong commitment to protecting the homeland and the American people 
through the effective and efficient use of DHS resources. As outlined 
in my testimony today, the Department will continue to build upon past 
successes in several areas including securing U.S. air, land, and sea 
borders; safeguarding lawful trade and travel; securing Federal 
networks; and disrupting and dismantling transnational criminal and 
terrorist organizations that engage in cross-border criminal activity 
while maximizing every taxpayer dollar we receive.
    Thank you for inviting me to appear before you today. I look 
forward to answering your questions and to working with you on the 
Department's fiscal year 2012 budget request and other homeland 
security issues.

    Chairman King. Thank you, Madam Secretary. The issues seem 
to evolve week by week. Last week, of course, was the Khalid 
Aldawsari case in Texas, and which shows we still have 
vulnerabilities in our student visa program.
    Following the September 11 attacks, Congress passed a visa 
security program to deploy DHS personnel to high-risk visa 
issuing posts. Section 428 of the Homeland Security Act 
specifically requires that DHS personnel be assigned to Saudi 
Arabia.
    Can you describe for us the role that DHS plays in 
analyzing these visa applications--how and if that overlaps 
with the State Department? Can you get--are there any lessons 
learned from last week? Is there anything that occurred in that 
case that could be prevented in the future, as far as 
addressing our visa procedures?
    Secretary Napolitano. Mr. Chairman, actually, I think that 
case is a good news story, and I will tell you why.
    First of all, the individual involved entered the country 
the first time on a student visa, attended college, went back 
to Saudi Arabia, and then was issued a second visa--there was, 
to my knowledge, no derogatory information discovered either by 
DHS or the State Department in connection with that--returned 
to the United States.
    What ICE does with students who are here on these kinds of 
visas is it monitors them on a continuing basis, and through 
that monitoring discovered a SAR, a Suspicious Activity Report 
of unusual banking activity by this individual. It notified the 
FBI. The FBI and ICE then pursued an investigation. Of course, 
that led ultimately to the arrest of the individual involved.
    I think what the case illustrates is a need to have a 
layered approach here. At any one time you may not have 
derogatory information about an individual. It may develop 
subsequently. So what we have been working on and developing in 
our country is we want students to come from other lands. There 
is a huge benefit for the United States in that. We also need 
to attend to our security concerns. This kind of layered 
approach allows us to do that.
    Chairman King. Okay. Without discussing the details of the 
case, because, obviously, the case is still proceeding, but was 
he found because of what ICE detected with the questionable 
bank transactions? Or was it because the person in the chemical 
supply company notified the FBI that he was asking to have the 
materials sent to his home?
    Secretary Napolitano. My understanding is that the first 
notice to the FBI was from ICE, from the SAR report.
    Chairman King. Okay. Would that have been sufficient, do 
you think? Oh, yes, I am not trying to find fault. I am just 
saying----
    Secretary Napolitano. Yes.
    Chairman King [continuing]. Can there be any lessons 
learned from this? What could be possible also is that ICE did 
learn of this, something was done, but there was not sufficient 
follow-through, because my understanding is if he had gotten 
the phenol, the bomb would have been ready to go, so even 
though ICE had made this initial discovery, still he was in a 
position, though, to possibly launch an attack.
    Secretary Napolitano. I think that illustrates why you have 
to have many layers in the homeland security arena. It is why 
the ``See Something, Say Something'' campaign has been 
instituted by the Department to go National, because we want 
individuals and companies, particularly those that run things 
like chemical plants, to know if they see something unusual, 
they need to report it as well.
    It increases the likelihood that we will pick up something 
before an act can be completed. So we give credit there. We 
give credit to ICE. We give credit to the FBI. They all 
ultimately were converging on one individual.
    Chairman King. You may have violated Chairman Lungren's 
copyright on layered defenses. He started using the term 5 
years ago. That one issue we had, he was able to plug the 
layered defense rationale. I agree with you on that.
    Just one final question on D Block. In light of the 
President's announcement that he fully supports the 
reallocation of the D Block to public safety, do you insist 
that your Department get involved in that effort in doing all 
that can be done to work with Congress and the administration 
to get it through?
    Secretary Napolitano. Yes. Yes. In fact, the DHS and the 
Department of Justice were heavily involved in the decision to 
stop the option of the D Block and to reserve it for public 
safety. We anticipate being involved on an on-going basis.
    Chairman King. I know there has been continuing controversy 
over it, certainly, within Congress, but right now I think we 
are getting closer to getting the votes we might need. I am 
working with Senator Rockefeller, Senator McCain, Senator 
Lieberman, so any assistance you can give us. I look forward to 
working with you and the Attorney General on that.
    Secretary Napolitano. Yes, sir. Yes, absolutely.
    Chairman King. Thank you, Madam Secretary.
    I now recognize the gentleman from Mississippi.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Madam Secretary, recently, Government Accountability Office 
(GAO) released its high-risk list. Once again, many of the 
processes of integration and transformation of DHS have been 
identified. In light of this budget, the new initiatives that 
you are putting forth, would you be able to address some of 
those issues that GAO highlighted?
    Secretary Napolitano. Yes, Mr. Ranking Member. The GAO 
report--it had good and bad. It had good in the sense that it 
recognized a number of the transformational management 
activities that have been under way over the past years as we 
worked to integrate these 22 agencies into one large 
department.
    It also pointed out, as you note, some other areas where we 
need to put in some continued effort. I believe that those 
efforts will continue under the President's budget.
    I will say that if the House CR that was passed by the 
House becomes effectively the fiscal year 2012 budget as well, 
that is going to have some impact on the Department both on 
front-line operations, but also on the management side.
    Mr. Thompson. Let us take maritime cargo. As you know, 
Congress some time ago passed a 100 percent screening mandate, 
and there have been issues around it. You testified last year 
that you couldn't meet it. Some of us are convinced that it was 
a Congressional mandate, and we want to know how and what you 
plan to do to address this Congressional mandate that, 
obviously, you won't be able to meet.
    Secretary Napolitano. Yes, Representative Thompson. I could 
give you a very, very long answer, but let me try to keep it 
brief.
    First of all, I think the mandate was constructed at a time 
before we had really a mature understanding of what that meant 
and what the possibilities were or were not in that regard.
    One of the things that has happened over the past 8 years 
is we have developed a much more mature understanding of what 
homeland security means and how we link with National security 
and with issues around the world. What sounds easy and 
foolproof in the end turns to be neither easy nor foolproof. 
That is really what has happened with that requirement.
    So what we are doing is working on an entire global cargo 
security initiative that involves the International Maritime 
Organization, involves the International Aviation Organization, 
involves the World Customs Organization, really dealing with 
the point of time from which a good enters the global stream of 
commerce to the time that it reaches its end user and different 
things along that entire chain that need to be done to make 
sure that cargo remains secure, is secure at the outset, 
remains secure through the stream of commerce.
    We would be happy to brief you in greater detail on that 
work.
    Mr. Thompson. Well, I would really like to have it, 
because, you know, Congress passed the mandate. We didn't say 
to the Department, ``Look at it. Tell us what you think.''
    I think part of the discomfort for some of us is that if 
Congress decides in its wisdom to so do it, then we expect the 
agencies to follow the Congressional mandate. Obviously, that 
was not followed. I know you inherited part of it, but 
nonetheless, the mandate stands.
    Secretary Napolitano. The statute also provides, however, 
that the Secretary can extend the time. As we have been doing 
that, we have been keeping the committee briefed, and we will 
keep you briefed, Mr. Representative Thompson.
    Mr. Thompson. Well, that is fine. I think ultimately by 
extending the time, I think the scanning mandate would be 
something that some of us would expect to be followed.
    I yield back.
    Chairman King. Thank you, Ranking Member Thompson.
    Now recognize Members of the committee for 5 minutes for 
questions. As I said at the beginning, the Secretary has to 
leave here before noon, so I would ask the Members, observe the 
5-minute rule and not go over, in accordance with our committee 
rules. I plan to recognize Members who were present at the 
start of the hearing by seniority on the committee.
    Recognize the gentleman from California, Mr. Lungren.
    Mr. Lungren. I thank the Chairman. I hope that caution 
wasn't just directed at me, but I will try and stay within the 
5 minutes.
    First of all, Madam Secretary, I want to thank you for 
going forward with things such as ``See Something, Say 
Something''. I think that makes a good deal of sense and gets 
us in a cooperative venture, if you will, with the citizens of 
this country. I think we need to go forward.
    The context in which we are appearing here today--you are 
appearing here today--is set really by the chief of the Joint 
Chiefs of Staff, chairman of the Joint Chiefs of Staff last 
year, who said that the greatest threat to National security is 
our fiscal irresponsibility. I mean, he told us that, even from 
his vantage point, we have got to get our fiscal house in 
order.
    So that puts constraints on all of us, Democrat, 
Republican, Executive branch, Legislative branch. I want to 
applaud you for your answer to the last question, with respect 
to 100 percent cargo screening or scanning.
    We need to do what works, and we need to use the layered 
approach. The height of insanity is to keep doing the same 
thing over and over again and expect different results. If you 
have run into bumps on the road in doing 100 percent cargo 
screening, the idea that you are going with layered approach, 
with the entire supply chain, makes eminent sense, at least to 
this Member. I thank you for it.
    I would like to ask you a question, though, in these tough 
budget times about a couple of the priorities you have set. One 
for which I would applaud you is your fiscal year 2012 request 
for cybersecurity.
    It appears to be the largest increase in the category of 
NPPD. I think that makes eminent sense. Maybe you could tell us 
exactly why you have that as a priority.
    On the other hand, I have a concern on the Customs and 
Border Patrol, where it appears in the 2012 budget 
justification documents that your Border Patrol plans to only 
maintain the current 1,007 miles under control for the rest of 
fiscal year 2011 and 2012.
    So, on the one hand, there appears to be, I think, an 
appropriate emphasis and priority given to cybersecurity. On 
the other hand, there does not appear, at least from my reading 
of your budget documents, a similar stress on the area of 
border control. Now maybe you can talk to those two things, 
please.
    Secretary Napolitano. Well, yes. With respect to cyber, we 
have identified that as one of the five key mission areas of 
the Department.
    One of the things I have tried to do as the Secretary is to 
take all the myriad agencies, departments, whatever, that were 
merged in the DHS, with all of the hundreds of missions that 
they have, but to consolidate into five major mission areas.
    We have identified cyber. The point of fact is, is that 
between DHS and DOD, we possess probably 95 percent of the 
cyber responsibilities in the United States Government.
    We need to protect the civilian side of the Federal 
networks from attack. We need to accelerate the deployment of 
Einstein 3, which is the program we are using to do that. There 
are a whole other host of activities we need to undertake, 
including increasing our cyber workforce.
    This is a key need of the Department and the Federal 
Government at large is to have more cyber-competent individuals 
working for us. Office of Personnel Management has now given us 
direct hire authority. We are actively going out. We are 
actively going to your State to try to recruit individuals to 
come into the public service and to help us out.
    With respect to the border, I think you are referring to a 
GAO report on operational control. I think what your question 
presumes is that, A, that report is correct and, B, that the 
President's budget is not the most aggressive in history with 
respect to the border.
    As I have explained before, operational control is used and 
referred to in a GAO report as a very narrow term of art. It 
doesn't include, for example, force multipliers like all the 
technology and infrastructure that has been deployed to the 
border.
    If the President's budget is adopted, we will have more 
Border Patrol agents at the border than at any time in our 
Nation's history. They will be accompanied, however, by a 
technology laydown that will greatly expand their ability to 
make great use of their man-hours.
    As you also know, the President has also sent the National 
Guard to the Southwest border.
    In contrast, however, I must say that I am very troubled by 
the House Resolution 14, particularly if it becomes the basis 
for the 2012 budget, because it does not fully protect those 
expansions in CBP and ICE in all of their operations that we 
have seen under the President's budget.
    So I would ask the House, as it gets us, hopefully, out of 
continuing resolution land and into a real budget for fiscal 
year 2011 and looks at fiscal year 2012, that we really 
reexamine those priorities.
    Chairman King. The gentlelady from California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Thank you, Madam Secretary, for being before us once again.
    There are several issues I would like to ask you about. The 
first one is about the UASI grants, the Urban Area Security 
Initiative grants, which you know are to do basically mutual 
benefit for regions of the United States.
    I know that in 2012 you have increased the President's 
budget $33 million. But the Republicans cut out $67 million 
from the program during the CR debates these past 2 weeks.
    Can you explain to me how detrimental it is to--if you 
think the UASI grant program is, in fact, something we should 
have and how detrimental it is, if we should begin to cut it?
    I mean, if in 2 weeks they go to cut--I mean 2 weeks ago to 
cut $87 million from it, if we continue to see those sorts of 
cuts, what would that do with your local partnerships that you 
are trying to do from a terrorist or National disaster 
situation?
    Secretary Napolitano. Representative Sanchez, the House 
concurrent resolution, as I understand it, actually ends up 
cutting almost a billion dollars from FEMA grants. That is 
troublesome in a number of areas.
    I think it reflects perhaps a different philosophy about 
what grants are for. But what these grants are for is to make 
sure that we have a homeland security architecture that works. 
That means States and localities all have to have certain base 
capabilities. Then in particular areas of the country, we need 
even more than that.
    In addition, I mentioned fusion centers in my opening 
statement. What these are are a network of 72 centers. They are 
relatively new, only a few years old. Most of the things in the 
Department are relatively new.
    What they are designed to be are Federal, State, local co-
located entities where information intelligence from 
Washington, DC, at the secret and above level, can be 
transmitted as well as trends and tactics, techniques, things 
that we are seeing, as well as real-time threat information, so 
it can get quickly out to the country, and also so we can 
receive information back about tactics and trends and things 
they see.
    Let me give you a practical example. The Zazi case, Zazi 
was an individual who was participating in a plot to come into 
the New York subways and blow up the subways. He was going to 
use explosives that used a lot of hydrogen peroxide as part of 
the basis for those.
    So one of the things you could do through a fusion center 
is immediately go out and look around the country for unusually 
large purchases of that material by individuals who normally 
purchase it. So the fusion centers really become a way to share 
intel across the country and come back.
    Part of our budget allows us to place our own intelligence 
analysts in the fusion centers, which is a way, also, to 
increase that capability around the country outside of the 
beltway. So these grants serve a lot of different purposes and 
they begin, however, with the philosophy that we need a 
comprehensive homeland security architecture at the State and 
local level.
    Ms. Sanchez. Thank you, Ms. Secretary. I also believe that, 
obviously, you have been working with my local State as well as 
the Federal agencies that protect areas like Orange County, 
where we have Disneyland, and some of the largest entertainment 
venues, where we are 25 minutes' drive away from the port of 
Los Angeles and Long Beach. The list goes on and on.
    Let me ask you about the US-VISIT program, because the last 
time you were before us, I asked you about that. I see that in 
the President's budget, the program has been cut by 19 percent. 
So, of course, I am very interested about this visa overstay 
issue, which has a lot of implications like with visa waiver 
programs. Of course, when we saw the 9/11 people, a lot of them 
overstayed. Terrorists overstayed their visas.
    So my question is this: We are cutting the monies to the 
VISIT program. How are we going to get this exit piece done 
with respect to the US-VISIT program?
    Secretary Napolitano. Well, that, again, probably requires 
a longer answer than I have time right here. But let me just 
respectfully suggest that, again, we will provide you with some 
supplemental information.
    But a biometric exit program is, for a country like the 
United States, where you have air, sea, and huge land borders, 
is going to be extraordinarily expensive to accomplish. Our 
view is that, at this point in time, that is something that we 
could better accomplish right now in terms of detecting or 
picking up overstays by making sure that ICE is properly funded 
to go ahead and pick up people.
    So you have to look, I think, at ICE and US-VISIT and 
identify all of those things together.
    Chairman King. The gentlelady's time has expired.
    The gentleman from Alabama, Mr. Rogers, will be followed by 
Ms. Jackson Lee, Mr. McCaul, and Mr. Cuellar.
    The gentleman from Alabama is recognized for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    Secretary, thank you for being here. I always look forward 
to having your feedback.
    Recently, I had Chief Fisher in here for my subcommittee, 
and we had a problem in coming up with the definition that DHS 
is using for determining whether or not they have secured the 
Southwest border. The term is defined in the law. Operational 
control is defined as being the prevention of all unlawful 
entries into the United States, including entries by 
terrorists, other unlawful aliens, instruments of terrorism, 
narcotics, and other contraband.
    But when we asked Chief Fisher to define operational 
control, he had the Department's definition, which was 
different. Why don't you all use the definition that is used 
in--that is set out in Federal law?
    Secretary Napolitano. Well, Congressman, I think you will 
probably find throughout Federal law different definitions of 
different things where security is concerned. What we are 
certain about is making sure that that border regions, both the 
Northern and Southern, are safe and secure.
    We have some key concerns there. We have been making a lot 
of progress, as you know. The President has put more resources 
on the border, the Southwest border, than at any time in our 
Nation's past. Numbers that need to go up are going to and down 
or going down. We want to continue that progress.
    I would say that the House concurrent resolution, by the 
way, again, if that is what we have to live under, is very 
problematic in that regard.
    Mr. Rogers. Well, I understand, but I do want to point out 
that I am talking about the Secure Fence Act of 2006. That is a 
pretty specific Federal statute that deals with that 
definition, and it seems to me that the Department ought to be 
adhering to that definition when trying to determine whether or 
not they have actually achieved operational control.
    Another thing, ICE--as you know, I have talked to you in 
the past about my concerns that we have not adequately funded 
ICE to increase the number of ICE agents in the field, 
particularly, of course, when you look at what we have done 
with CBP it is just there has been no significant increase in 
ICE agents.
    But earlier this week, I met with some ICE folks about the 
detention of people here in the country that are found to be 
illegal and was surprised to find that if somebody in Alabama 
is detained, we have two jails in north Alabama where they are 
held until they could be taken to New Orleans for a hearing, 
which is the closest immigration judge.
    My question is: Why don't we have an immigration judge in 
Alabama, because just the transportation costs alone are just 
unbelievable? So to that end, I have spoken with Chairman 
Aderholt of the Homeland Approp. Subcommittee, and he and I are 
going to work to try to get an immigration judge in Alabama. We 
are going to work with Lamar Smith of Judiciary to that end.
    My question is would you support that?
    Secretary Napolitano. Well, we certainly would look at 
that, because you are right to identify the transportation 
costs and delay, because then you take an ICE agent off the 
line to do the transportation.
    I think your question, though, also illustrates when you 
are talking about immigration, we really go from CBP and ICE to 
Justice. It is a system. From a jurisdictional standpoint, 
there is kind of a break, so this committee looks at all the 
way up to apprehension and detention, and then everything else 
is over on the Justice side of the ledger. That is where the 
judges would be found.
    Mr. Rogers. I am going to work to that end, but I would 
like for you to be supportive in that effort to the extent that 
you can be.
    Secretary Napolitano. Thank you.
    Mr. Rogers. Then finally, my staff and I have been engaged 
with TSA regarding using CR funds for the procurement of vapor 
wake canines. My question is are you on board with allowing 
those CR funds to be used to procure those assets?
    Secretary Napolitano. Well, we are, but I will tell you 
that as we look at the fiscal year 2011 House CR, it has a big 
cut for the canine teams, so that also is problematic. As we 
look at what our fiscal year 2011 budget really ought to be and 
fiscal year 2012, I think you and I both agree that canines 
should be maximized.
    Mr. Rogers. Great. Thank you very much.
    I yield back, Mr. Chairman.
    Chairman King. The gentlelady from Texas, Ms. Jackson Lee, 
is recognized for 5 minutes.
    Ms. Jackson Lee. Mr. Chairman, I thank both you and the 
Ranking Member.
    Madam Secretary, I don't know how often you hear this, but 
let me personally thank you for your service. Let me thank the 
Department of Homeland Security for their service. We interact 
with your team every day of our lives and recognize that you 
are on the front line. I would almost say that we are all 
working to put ourselves out of business, but we realize the 
challenges that we are facing.
    Let me quickly lay the groundwork for my questions and 
just, first of all, thank you for the fiscal year 2012 budget 
and your commitment to Federal Air Marshals surge after the 
Christmas day bombing incident. I join with my good friend from 
Alabama. We are canine teams supporters, and I hope that we can 
work against H.R. 1--at least, I want to work against it in 
terms of those potential cuts.
    I believe you were questioned extensively about the 
passenger security fee. I would almost say that most Americans 
would accept that fee. Every time I am traveling through 
airports, I see a sense of comfort and recognition that they 
are being secured by the enhanced services that they see.
    I am concerned as I notice the H.R. 1, and I just jumped 
from your fiscal year 2012 budget to H.R. 1 and saw that you 
would actually lose under this budget some 50 percent in 
technology and tactical communications, for border security. 
You would lose some 800 positions under border security.
    What disturbs me are the advanced imaging technology 
machines. You lose a number of them. So I am concerned about 
that, and I wish to ask these questions, if I might. I am just 
going to ask them and then yield to you.
    The H.R. 1, $1.1 billion in reductions--I would just like 
an impact from you losing that money in our present state. I 
think most people don't realize this is to finish out what you 
had already committed to.
    Also, do you support the position of Mr. Pistole on 
Standard Security Program (SSP)? I am reminded of how we were 
rushing around after 9/11 to find out what happened.
    I also would appreciate--I had asked you a question in your 
last meeting with us about the minority personnel, whether you 
have a chief human services officer that looks at that and 
looks at procurement.
    Then lastly, this is an issue that has struck me. I am a 
supporter of comprehensive immigration reform. You might want 
to comment on maybe how that would even save some money. But I 
would like to know how ICE might interface and be of help to 
local law enforcement.
    I have lost two alleged criminals. One drunk driver killed 
two teenagers, and one ultimately committed suicide--under 15--
because she thought she should have died in the accident. That 
person was allowed to go home. They left for Nepal.
    In the last 3 days or 4 days, a woman who has a Nigerian 
relative was a caretaker for seven babies. Four died in a fire. 
The allegation is that she left the home and went shopping, and 
these babies died. She was not picked up, and she left for 
Nigeria.
    It seems that maybe our local enforcement could interact 
with ICE and say, ``We have suspicions. Can you hold this 
person?'' But even not, if I can get in a discussion with you 
on that, we are just outraged. The Nepal person has not been 
found, and the person in Nigeria we are still looking for. So I 
would just appreciate your commentary.
    Might I just add my sympathy and respect for Mr. Zapata and 
his family and his partner? We know that we have to do better 
with respect to our ICE partner nations and those who serve 
overseas, particularly those who are unarmed.
    Madam.
    Secretary Napolitano. With respect to cooperation between 
ICE and local law enforcement, I think a key tool is our Secure 
Communities program. If they make an arrest, if a locality 
makes an arrest, and they have Secure Communities in the jail, 
that means when the fingerprints are run, they are run not only 
against the FBI criminal databases, but also against the 
immigration databases to determine legal presence.
    If an individual is not legally present, there is a 
transfer over to ICE after whatever criminal punishment is 
merited is carried out. So that is why the budget continues 
funding into fiscal year 2012 for Secure Communities. We will 
be almost 100 percent complete by the end of fiscal year 2012.
    With respect to hiring and diversity in hiring, we have 
been aggressively moving in that direction. From Senior 
Executive Service (SES) and above positions, we have increased 
diversity hires by 17.5 percent over the last year, which is a 
significant increase.
    The percentage overall employees who are members of ethnic 
minorities or who led to our diversity is well over--I think I 
have an actual number. I think it is--we have gone from 38 
percent to 40.6 percent in the last--from January 2009 to 
December 2010.
    So we are really moving aggressively on both of those 
fronts, the SES and then the other positions within the 
Department.
    Ms. Jackson Lee. But there are dollars out of H.R. 1 that 
you are losing.
    Secretary Napolitano. Well, as I have mentioned before, it 
will mean--because we are halfway through the fiscal year, so, 
you know, H.R. 1, you almost have to multiply everything times 
two from a management perspective. I am not sure everybody 
understands that, but because we are already halfway into the 
year, that is what the practical impact is.
    But it will cut the number of AIT machines we were 
intending to deploy by half. It will cut the number of portable 
explosive trace detection machines by half. It will cut the 
number of canine teams by almost two-thirds. I think it will 
result in longer wait times in the airports for the passengers. 
It will cut funding for 250 ICE agents along the Southwest 
border. It will reduce the FEMA grants. I have already 
commented to that.
    It cuts science and technology research by 50 percent. If I 
might comment to that, people are always asking me, you know, 
when are we going to be able to keep our shoes on and take 
bottles of water on the planes and so forth? Well, that is the 
kind of technology and science research that S&T Directorate 
funds. Those will be cut dramatically under H.R. 1.
    Chairman King. The gentleman from Texas, Mr. McCaul, is 
recognized for 5 minutes.
    Mr. McCaul. Thank you, Mr. Chairman.
    Madam Secretary, thank you so much for being here today.
    I want to first express my sympathy to the family of Agent 
Zapata and, as know you do as well, in the survival of Agent 
Avila, which is nothing short of a miracle, given what happened 
down there. I think it was an intentional ambush, a bit of a 
game changer that they are now targeting our guys down there, 
U.S. law enforcement--83 rounds fired from this AK47.
    First, I want to thank you for the good work to apprehend 
these suspects down there. It was their view that this was a 
case of mistaken identity, that this was a rival drug cartel 
gang. The briefings I have received were that the two agents 
were American diplomats. They have a U.S. diplomatic tag. I saw 
reports the Mexican Army seemed to be reporting what the Zetas 
were saying in terms of mistaken identity.
    What is the position of this administration with respect to 
the claim that this was mistaken identity?
    Secretary Napolitano. Well, Representative McCaul, thank 
you for your expressions and your support on this matter. I 
think it would be inappropriate for me to comment on the actual 
evidence that will come in. This obviously is a matter that is 
being, you know, prosecuted. My understanding is that it will 
be prosecuted in the United States, but again those are 
decisions that are yet to come.
    Mr. McCaul. I appreciate that, but on my own behalf I will 
take the eyewitness account of our agent over the Zetas who 
have been apprehended any day. I hope the administration would 
back that eyewitness account. With respect to extradition, I am 
glad you brought that up. Is it the administration's position 
that we will be seeking extradition into the United States?
    Secretary Napolitano. Yes.
    Mr. McCaul. That is very good news. I know President 
Calderon is in the United States, and it is probably a good 
time to talk to him about that.
    Before I get into the budget, one last question with 
respect to that shooting was that I was surprised to find out 
that there is a 1990 agreement that prohibits our officers from 
carrying weapons down in Mexico. Things have dramatically 
changed from 1990. There is a war going on, as you know, and it 
seems to me our agents should be armed, if we are going to put 
them down there in harm's way.
    Would you support a revision of that agreement?
    Secretary Napolitano. Well I think the issue of agents and 
arming is one that is something that probably should be 
discussed in a more classified setting than a public hearing. 
Perhaps we can provide for that, Mr. Chairman, because it is an 
issue that involves not just Mexico but some other countries as 
well.
    Mr. McCaul. Okay. I look forward to that as well.
    On the budget, I looked at the--it has CBP decrease the 
border security fencing, infrastructure, and technology account 
by $300 million, so from $800 million to $500 million, if what 
I have in front of me is correct.
    This was given to us by staff. Do you know what happened to 
that account or whether the monies have decreased?
    Secretary Napolitano. It is not. No, what is happening is 
we are not buying SBInet, because SBInet doesn't work. I think 
for the first, the Tucson and the Ajo sectors, it was far 
enough along that we completed it and given the topography 
there, it made sense. But border-wide it doesn't make sense. So 
what the budget requires, or what the budget buys is $242 
million of technology that the Border Patrol agents can 
actually use.
    It is remote video, video surveillance equipment. It is 
mobile video equipment, a whole laundry list of things that our 
agents can actually use right now.
    Mr. McCaul. So that discrepancy, that is probably just a 
cancellation of SBInet that appears, but that money will still 
be used towards technology down on the border.
    Secretary Napolitano. Yes, there is an entire technology 
plan that we have developed for that.
    Mr. McCaul. I think that is critically important. You know, 
in my State of Texas there is really almost zero technology 
down there. Congressman Cornyn and I took--as you know, down to 
the border of Laredo with some very good sensor surveillance 
technology that the Department of Defense had been using. I 
think he was receptive to that idea and commend you.
    I would ask that you look at deploying that type of 
technology all across the southwest border. I think technology 
is going to be the answer down there. Then, of course, we need 
the manpower to respond to it and so----
    Secretary Napolitano. Indeed.
    Mr. McCaul. Well thank you so much. I yield back.
    Chairman King. The gentleman from Texas, Mr. Cuellar.
    Mr. Cuellar. Thank you Mr. Chairman. I want to thank you 
and the Ranking Member for having this meeting.
    Thank you, Madam Secretary, for being here with us. Again I 
also want to extend my prayers and sympathies to the ICE 
family, not only the immediate family but to the ICE family 
here also. He was from Brownsville, from Mr. Farenthold's area, 
and he was stationed in Laredo, was part of the BEST program, 
which is again a good coordination program that you all have 
there.
    What I want to do is focus on the budget. When you look at 
all the accounts, I believe it is about $500 million impact cut 
to the CBP budget. Could you tell us what the continued 
resolution, if it passes as is, what sort of impact it would 
have on border security operations? Again, look at all the 
accounts and tell us what sort of impact it would have on us.
    Secretary Napolitano. Well, we will give you a thorough 
list, but as I said, it basically stops our progress in its 
tracks. If anything, reduces our ability to move ahead. As you 
know, we have been adding record amounts of agents and record 
amounts of technology, as Representative McCaul just mentioned, 
to our border and, if anything, we are going to have to cut 
back.
    Mr. Cuellar. Right. One other thing the American people 
have been saying, especially because of what has been happening 
across the river, that we got to do more for border security, 
but then with this $500 million cut, that pretty much stops the 
progress that you are referring to. Isn't that correct?
    Secretary Napolitano. Yes, and what we want to do is 
continue to add to the border. Our goal, as you know, is to 
have a safe and secure border zone, both for the public safety 
of our communities along the border, some of which, Mr. 
Cuellar, you represent, but also recognizing the amount of 
legitimate trade and travel that needs to traverse that border. 
If it is not safe and secure, it will impact the commerce and 
that impacts jobs, so there are lots of ramifications for not 
continuing with the President's program.
    Mr. Cuellar. Right. I think, as Mr. Rogers mentioned a few 
minutes ago, a lot of people when they talk about border 
security, they talk about just among the men and women in 
green, which are the Border Patrol which I support, but you got 
to have the ICE agents. You got to have other agents there. You 
got to have the men and women in blue, which are the ones that 
guard border----
    Secretary Napolitano. Ports.
    Mr. Cuellar [continuing]. I mean, our bridges, the ports of 
entry, which are so important.
    Those are the areas especially trying to find the right 
border security with the right legitimate balance of trade and 
tourism, which is so important. Laredo is the largest inland 
port in the southern part of it, and that is why the men and 
women are so important to us. So, I mean, I certainly agree 
with Mr. Rogers that we got to find that balance.
    In my opinion, the $600 million that we added last year, 
that was probably the largest infusion of cash, will be taken 
back by cutting at least $500 million from the CBP budget for 
all the advances that we are trying to do.
    Secretary Napolitano. Representative, if H.R. 1 becomes the 
basis for the fiscal year 2011 budget, that is really a 
concern, because it will not annualize all of the additions 
that Congress has put down at the border.
    Mr. Cuellar. I think you hit it right, that we are talking 
about 7 months. We are already--it is not a full year, is it? 
This is just addressing part of the remaining year, which makes 
it a greater impact.
    Secretary Napolitano. Indeed.
    Mr. Cuellar. I got about a minute and 20 seconds. Let me 
ask you, what about detention beds, that H.R. 1 doesn't help 
maintain the 33,400 detention beds we need, because when we 
catch somebody here without the proper documentation, we just 
can't catch them and release them. We got to detain them before 
we hit them--before we send them off. How does that hit the 
detention bed needs that we have?
    Secretary Napolitano. Well, again, we think we need 33,400 
detention beds. Now, we don't need them 33,400 every day. I 
mean, you know it fluctuates a little bit. But we think you 
need to have a constant presence of 33,400 to support the 
removal of all of the individuals we seek to remove from the 
country this year and next year.
    Mr. Cuellar. Right.
    Secretary Napolitano. So and if you--in a way we are 
caught, because you fund the detention bed at 33,400 and the 
officers necessary to guard those beds, then the cuts can only 
come out of one place and that means the officers that are out 
in the field. I don't think either makes sense. You have the 
officers in the field, and you have to have the officers in the 
detention centers.
    Mr. Cuellar. I have got 11 seconds. Just real quickly, last 
time you said that it would be a good idea to have a fusion 
center in Laredo. We have been talking to your folks, who have 
a different opinion. We don't have a fusion center at the 
border and would ask you to consider adding a fusion center to 
the border.
    Thank you very much, Mr. Chairman.
    Chairman King. The gentleman only 3 seconds over. Good job, 
Henry.
    The gentleman from Minnesota, Mr. Cravaack.
    Mr. Cravaack. Thank you Mr. Chairman.
    I, too, to extend appreciation for all the Homeland 
Security Officers and their families for what they do on a 
daily basis. I actually had Homeland Security credentials as a 
Federal flight deck officer when we first started that program, 
so that was many years ago, but thank you very much for all the 
homeland security for what they do just on a daily basis, so.
    I agree with you very much and appreciate you working with 
this CR. Unfortunately, you are at the tail end of this whip 
that has been going back and forth, and I appreciate you as a 
manager being able to work through this.
    I will also assure you that this Congress, the 112th, will 
provide a budget for you that will be able to give you 
stability to make sure that you can make those critical 
decisions that you need to make in the future, ensuring that we 
get the right money to the right missions to protect the 
homeland and people within the United States. So I thank you 
very much for that.
    One of the things I did want to ask you about, though, is 
just recently you were able to----
    Secretary Napolitano. I am going to write that down, by the 
way.
    Mr. Cravaack. Yes, you betcha!
    I want to make sure that--I just had a couple questions in 
regards to just recently you went over to Afghanistan.
    Secretary Napolitano. Yes.
    Mr. Cravaack. You are thinking about deploying agents over 
in Afghanistan. Could you expand upon that, and why you think 
that is necessary?
    Secretary Napolitano. Yes, what we are doing, and we have 
about 25 total over there right now, but what we are engaged in 
is basically a training capacity building on the customs side 
with Afghanistan so that they can develop their own customs 
service, particularly at their big land ports like Torkham 
Gate, which is a port between Afghanistan and Pakistan, 
governing who goes back and forth, but also the ability to 
collect customs revenues so they have some revenue for their 
Government to exist upon, as we continue to convert from a 
military to civilian presence.
    Mr. Cravaack. Thank you for that. I think that is a 
critical mission as well, so thank you for that.
    Also, being an airline pilot, I took a look at the aviation 
passenger security fee. You are planning to increase that by 
$1.50 for reimbursement. In the reports that I read, that is 
basically to fund TSA costs that have risen by, like, 400 
percent.
    Secretary Napolitano. That is true.
    Mr. Cravaack. Can you tell me why we have had such a 
dramatic increase in costs in the TSA?
    Secretary Napolitano. Well, because the threat to aviation 
has increased. Also because the amount of security we have to 
supply now in airports and for aviation is a very layered 
approach. But it means behavior detection officers. It means 
K9s. It means explosive trace detection equipment. It means the 
conversion from magnetometers to the AIT machines. It means, 
most importantly, personnel.
    What has happened with the fee is that the fee has never 
been increased. It was established in 2002, and it has never 
been increased at all. So it doesn't cover. It was intended to 
cover the cost of security for aviation. When it was enacted, 
that was the Congress' intent. But because the fee hasn't gone 
up, you have now this huge gap. It is about a $600 million gap 
between what we need to pay for security in the aviation 
environment in 2012 and fees.
    We believe it is time for the Congress in this fiscal 
environment--we will work with the authorizing committees like 
this one; we will work with the appropriations committees--but 
it is time to increase that fee.
    Mr. Cravaack. So you are saying, basically, the fees are 
going towards personnel and capital investment. Would that be a 
fair statement?
    Secretary Napolitano. Yes.
    Mr. Cravaack. Okay. The other thing is, being a former 
Federal flight deck officer, where do you see the Federal 
Flight Deck Officer Program? I know it is under TSA but do you 
still consider that a vital portion in our layered defense in 
terrorism for aircraft?
    Secretary Napolitano. Yes.
    Mr. Cravaack. Well, that was a great answer. I appreciate 
that.
    Secretary Napolitano. I am trying to help the committee 
with----
    Mr. Cravaack. I appreciate it. With my 51 seconds left----
    Chairman King. [Off mike.]
    Mr. Cravaack. I will yield, sir.
    Chairman King. Madam Secretary, in the 45 seconds I have, 
on a serious matter--they have all been serious matters--but 
especially in view of the shootings in Germany yesterday, does 
DHS have any information whether or not this was a lone wolf 
attack or any links to al-Qaeda or any other terrorist 
organization?
    Secretary Napolitano. Let me just say that, Mr. Chairman, I 
think that matter is under investigation and with lead, of 
course, by German authorities, since it occurred in Germany. 
But I think any information about that should be released in a 
classified setting.
    Mr. Cravaack. If you get--let us know if any data or 
information does come in, we would greatly appreciate that.
    Secretary Napolitano. Yes.
    Chairman King. Thank you. Thank you, Madam Secretary.
    The gentleman from Michigan, Mr. Clarke.
    Mr. Clarke of Michigan. Thank you, Mr. Chairman.
    Secretary Napolitano, it is great seeing you again. I 
wanted to thank you for your leadership, your knowledge, your 
ability to be able to handle the threats that our country is 
facing, and also for considering proposals from people like us 
in the legislature.
    My concerns are about the security of the Detroit sector 
border in particular and about the Northern border. I have got 
three questions. My first is about the President sending 12 
proposals, and it is regarding the recent Canada Vision 
agreement that was entered into between the United States and 
Canada and if you had thoughts on how that agreement could 
better supplement security in the Northern border.
    Secretary Napolitano. Well, I think that agreement is a 
landmark agreement for a number of reasons. But one of them is 
because it recognizes the need to have a perimeter security 
around Canada so that we begin utilizing some of the same 
criteria for who can enter Canada as they enter the United 
States, as we begin to understand the need to exchange 
information about travelers and the like.
    That will have an impact on the actual physical border, 
such as the border at Detroit, because we will, you know, have 
the ability, I think, to have equivalent information and 
equivalent standards and the like. That will facilitate, I 
believe, the legitimate trade and travel that needs to be able 
to cross, particularly at the Detroit area.
    Mr. Clarke of Michigan. Thank you, Secretary.
    My other two questions go to the impact that the House-
passed continuing resolution would have on border security.
    As I mentioned to you before, the Detroit sector is the 
busiest international border crossing, huge population center, 
international airport, large regional water system. Because of 
our declining State and local revenue, our first responders 
really don't have the capacity to protect us.
    In my opinion I believe that that sector warrants a Tier 2 
consideration rather than the current Tier 1 status. I 
appreciate your willingness to listen to me earlier this month 
on that issue.
    One concern I have in the House-passed CR is that it limits 
the Urban Area Security Initiative funding to the top 25 urban 
centers. Do you think this restriction will impact your 
Department's ability to protect urban areas?
    Secretary Napolitano. Well, I think the intent of that 
provision is to make sure that our largest, highest-risk areas 
do not get shorted on grant monies. Without commenting on that, 
let me just say that overall H.R. 1, by cutting almost $1 
billion out of the grant process, it is going to affect 
everybody. I don't--you are going to--up and down the list of 
cities.
    So without commenting further on the amendment that was 
passed, again, nobody will escape unscathed if that budget 
remains the budget.
    Mr. Clarke of Michigan. Thank you. My last question deals 
with the border security sensing infrastructure and technology 
account that is within CBP. The current CR made a huge cut to 
that. What type of impact would that have on the security of 
the Detroit sector border, if you have any opinion on that?
    Secretary Napolitano. I don't know that I have broken it 
out sector-by-sector to that level of detail, but it would 
certainly limit our ability to invest in new technology. I 
think a number of Members on both sides have recognized that 
you can't do this job with manpower alone. We need to be able 
to deploy the best available technology that our agents can use 
in the field.
    Mr. Clarke of Michigan. Thank you, Secretary.
    I yield back, Mr. Chairman.
    Chairman King. Thank you.
    The gentleman from Virginia is recognized for 5 minutes.
    Mr. Rigell. Thank you, Mr. Chairman.
    Secretary Napolitano, thank you very much for your 
testimony today. I would like to just share with you a comment 
that was made to me by a local sheriff and just get your 
perspective on it.
    He commented that the sheriff's office is required by law 
to notify ICE every time that they have an illegal immigrant. 
Very rarely does ICE respond back if they are or are not an 
illegal alien. However, it would make no difference, because 
they would not put a hold on them anyway. This is due to 
funding problems, since ICE does not have enough beds to act on 
the reported aliens.
    The court process takes 18 months to determine whether or 
not that person is indeed an illegal alien. This would require 
more cells, prosecutors, clerks and attorneys, and no one would 
fund what it actually costs to deport all the illegal aliens. 
The local sheriff's office does not have the resources to do 
ICE's job.
    Now I have learned in life that there are always two sides, 
and there is more to this than maybe what is here. So would you 
kindly comment on that and give that some perspective?
    Secretary Napolitano. Well yes, Representative, and I would 
kind of like to know which sheriff we are talking about. I 
think I actually do know.
    Mr. Rigell. Okay.
    Secretary Napolitano. But in any event, we work very 
closely with the sheriffs and police chiefs around the country.
    One of the key challenges we have is, you know, estimates 
vary, but estimates vary from between 8 to 12 million people 
who are in this country illegally. Plain fact of the matter is 
that if you look at the cost of removing an individual you 
can--the Congress has funded the removal of about 400,000 a 
year. We have prioritized in that 400,000 to say that the No. 1 
priority is for those who are convicted of crimes.
    That is why the President's budget expands what is called 
Secure Communities and puts it in the jails of our country, 
which are operated by the sheriffs, and the prisons of the 
country, which are operated by State Bureau of Prisons, because 
that is a way to make sure that those are committing crimes in 
addition to being in the country illegally are being removed 
through the immigration process.
    So in that 400,000, last year we removed over 200,000 who 
were criminal aliens, which was a record number by a large 
percentage. That is what Secure Communities enables us to do.
    Now, I don't know whether this particular sheriff has a 
jail where Secure Communities is not yet installed. If it is, 
it is something that we could get that information from and 
work with him on. But that is probably the easiest way to deal 
with his base concern.
    Mr. Rigell. Okay. Thank you for your response.
    You know, I have come to this body as an entrepreneur 
business owner, first-time elected official, and I have just 
been struck by, frankly, the tangled web of reporting 
relationships and the complexity of the committee structure and 
the organizational chart of the House, and I am sure that like 
every organization it can be refined and improved upon.
    Would you kindly give us your perspective on the number of 
committees that oversee Homeland Security and how that might be 
streamlined?
    Secretary Napolitano. I appreciate that question. This is 
something the Chairman and I have discussed. If oversight is a 
blessing, I guess you could say DHS is particularly blessed.
    When we were created, what happened was a number of 
departments were merged into DHS, and we all carried with--
everyone carried with them their committees. None of the 
committees were reorganized, really, to match the new 
Department.
    So the end result is we report to 108 committees of the 
Congress. The overwhelming majority of those are committees and 
subcommittees of the House. In the 111th Congress we testified 
285 times, 140 times with component heads who had to come down 
and testify. We provided 3,900 briefings to the Congress in the 
111th Congress--3,900.
    We are required to file something around 425 written 
reports a year. So it is a huge manpower drain on the 
Department. We would like to take some of those resources and 
put them into operations, particularly given the fiscal 
environment we are in, and we will support any effort by the 
committee to help us achieve that goal.
    Mr. Rigell. Well, thank you. I would want to join you in 
that effort, and I believe the committee generally would. Thank 
you for your testimony.
    I yield back.
    Chairman King. I can safely say this is one issue where the 
Secretary, the Ranking Member, and I agree 1,000 percent. It is 
absolutely disgraceful, the current system we have.
    The gentlelady from New York, my colleague, Ms. Clarke.
    Ms. Richardson. Mr. Chairman, how are we doing questions? 
Mr. Davis was here. I was here--several Members. It seems like 
we are getting a little out of order, although I love my--here.
    Ms. Clarke of New York. Mr. Chairman, no problem. I yield 
the----
    Chairman King. Fine, okay. I will recognize Mr. Davis.
    Mr. Davis is recognized for 5 minutes.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Thank you, Madam Secretary, for being here and for your 
testimony. I also want to express the sentiments conveyed by my 
colleagues in reference to imminent danger that all of our 
personnel involved in homeland security and other aspects of 
Government face on a daily basis. So we appreciate their 
services.
    There has been a great deal of progress in relationship to 
surface transportation, but I also think that buses still 
remain pretty easy targets. What funding options do you think 
might help sustain our security for this sector of 
transportation?
    Secretary Napolitano. Well, Representative, that funding, 
because buses are operated primarily, you know, at the 
municipal level, you would find funding for that. There are 
transit security grants, but there are also UASI grants, other 
sorts of grants that can be used for transportation security. 
So you would find those, you know, primarily under FEMA and 
primarily under the grant programs there.
    Mr. Davis. I noticed that the Transit Security Grant 
Program has been reduced to $200 million below the current 
levels. Does DHS have a way or do you have any thoughts about 
how you can help again with the security needs of this type 
public transportation in local areas?
    Secretary Napolitano. What we have recommended, 
Congressman, is that the number of grant programs under FEMA be 
consolidated from 17 to 9. That will reduce overhead at FEMA, 
which is where we put our grants.
    It will reduce overhead in localities in terms of how many 
applications they have to submit and making sure that the 
grants that remain are broad enough to include local decisions. 
If that is where they want to put their security money, they 
can put it into, say, the bus system, the subway, wherever.
    Mr. Davis. I also think we have made a tremendous amount of 
progress in this area, but I note that the President's 
requested funding calls for an increase in video agents that 
will bring us up to over 3,000. What civil rights, human 
rights, and private rights protections are we dealing with in 
order to assure that these individuals are not----
    Secretary Napolitano. Profiled.
    Mr. Davis. That is right. They are not racially profiled or 
ethnically.
    Secretary Napolitano. Yes. I think it is very important, 
given the very important Constitutional safeguards Americans 
have. But our video program has been developed with internal 
oversight by our own civil rights component and our own office 
of privacy component. The training has been viewed and 
approved.
    We are constantly looking at what best practices are so 
that we do not fall into the trap of profiling, which, by the 
way, does not give--you know, you want to do intelligence-
based, you want to be looking for tactics, you want to be 
looking for techniques and behaviors, not ethnicity or race, 
when you are really providing security.
    Mr. Davis. Thank you. Finally, do you support TSA 
Administrator Pistole's decision not to expand the SPP program 
for private airport screeners? Do you think this is good for 
security?
    Secretary Napolitano. I think Administrator Pistole, who, 
of course, was a former deputy director of the FBI, has made 
the right call here for several reasons. One is he wants to 
maintain flexibility to surge resources when he needs to, and 
there are issues there when you are talking about privatization 
of the screening population.
    Secondly, the studies that have been--you know, they still 
have to meet TSA requirements in terms of what they do, so it 
is not like there are different screening requirements. They 
are more expensive than simply maintaining it within the TSA 
structure, and that is an issue.
    Third, I think it is important to recognize that even when 
you privatize, you still have unions. Several of the privatized 
workforces are indeed also unionized.
    Mr. Davis. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    Chairman King. The gentleman from Missouri, Mr. Long, is 
recognized for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman. Did you need me to yield 
a minute?
    Chairman King. No, you don't. Thank you very much.
    Mr. Long. Okay. They told me earlier, but----
    Thank you, Secretary, for being here. Back in December, you 
announced that additional DHS officers were being sent to 
Afghanistan to assist in border control and customs. Would you 
please further explain the value of having DHS employees 
overseas and expand on some of the work being done by DHS 
officials in Afghanistan and other countries around the world?
    Secretary Napolitano. Yes, this is actually one of those 
things one recognizes is that the Department of Homeland 
Security actually has a footprint that is around the world.
    As I explained a little bit earlier, we have about two 
dozen employees in Afghanistan. They are training customs and 
customs officers so that Afghanistan can have its own customs 
force and also learn how to--or exchange about how we operate 
major ports of entry like the ports between Pakistan and 
Afghanistan.
    But we also have employees around the world at 
international airports, where they are a last point of 
departure for the United States. We have immigration officials 
at embassies around the world, such as Riyadh, for example, to 
help do security checks on individuals seeking visas.
    We have individuals around the world, who are working on 
protecting against human trafficking into the United States, 
protection of our intellectual property from the United States. 
There is actually quite an extensive international force 
laydown from the Department.
    Mr. Long. So the employees that we have over there are not 
training themselves. They are doing the training.
    Secretary Napolitano. Correct.
    Mr. Long. Okay. That is not how I interpreted it.
    You also mentioned that more Border Patrol agents than ever 
would be employed under this budget, and Black Hawk helicopters 
have become an effective and safe weapon in the toolbox of our 
Customs and Border Patrol agents. The Customs and Border Patrol 
have a great need of Black Hawk helicopters in carrying out 
their missions. Are you aware of this, and does your budget 
request reflect this?
    Secretary Napolitano. Well, yes, but we request other kinds 
of air support as well as fixed--as well as helicopters, also 
fixed wing support. There is also Unmanned Aerial Vehicle (UAV) 
support in the fiscal year 2012 budget so that we have and want 
to have total air coverage, particularly on the southwest 
border all the way from El Centro through Texas.
    Mr. Long. Oh, the agents, Border Patrol agents and ones who 
have contacted us expressing interest, they feel that the Black 
Hawk is probably their best, and if they could--I know that it 
is surplus equipment, and when they buy the Black Hawks, they 
are surplus, so just if we can look at that for them, I would 
appreciate it.
    Secretary Napolitano. Oh, absolutely. The Black Hawks have 
many uses. I will share with you that there is a great demand 
for Black Hawks by the Department of Defense, by us, by others, 
so they are really greatly in demand around the world.
    Mr. Long. One other thing, small business--I, like Mr. 
Rigell, come with a small business background, not a political 
background, ran my own business 30 years, of which part was 
real estate broker.
    A title company in our district in the 7th recently had 
$400,000 stolen, sent to Pakistan through cyber. The Secret 
Service has jurisdiction over these crimes, I understand, but 
what they did, effectively they came and emptied their bank 
account, which was not their money. The title company, of 
course, it is fiduciary. They are holding money for real estate 
closings.
    Secret Service, as I said, has jurisdiction over these 
crimes. How does the President's budget help protect our small 
business from these types of crimes, where they can come in and 
empty out bank accounts? The money goes to Pakistan. Secret 
Service has jurisdiction. Is there anything in the budget to 
help or give small business a solace?
    Secretary Napolitano. I would have--well, first, No. 1, I 
would have to know more about the facts to say definitively the 
Secret Service has jurisdiction, but the President's budget 
includes a great increase for cyber security on the civilian 
side.
    That means the protection of the civilian side of the 
Federal Government and our intersection with key sectors like 
the banking sector in the United States in terms of how they 
protect their own cyber networks, because realize the 
Government, you know, doesn't own the banking structure. I 
mean, that is owned by the banks themselves. They have their 
own cyber protection.
    What we are doing is working with them as to what that 
protection entails. We are working with them to let us know 
when they have been hacked into and funds have been stolen and 
issues like that. So the President's budget greatly increases 
the amount available to us for cyber protection generally.
    Mr. Long. Okay. Thank you again for being here today and 
fitting us in your schedule.
    I have no time to yield back, but if I did, I would.
    Chairman King. The gentlelady from California, Ms. 
Richardson, is recognized for 5 minutes.
    Ms. Richardson. Thank you, Mr. Chairman.
    Madam Secretary, let me start off by saying thank you for 
coming, as always, and your work in this area has been, I 
think, when you look at the history of the secretaries in this 
area has been really commendable, so thank you.
    I want to join in with Ranking Member Thompson in asking 
for the briefing on the cargo inspection and security piece.
    Also I want to reference a question I asked, seems like a 
couple of weeks ago when you were here last, about a briefing 
on continuity of Government. When I say continuity of 
Government, I am not referencing agencies. I am talking about 
with elected officials and how we respond and assist, if and 
when a disaster occurs.
    Thirdly, I want to commend you. I have observed one of the 
new Coast Guard cutter response vehicles. There was an oil 
spill in my district last week, and I saw the 45 and the 
ability to navigate from side to side, the ability to stop on a 
dime. I mean, it just seemed like we are really finally getting 
to the point where we can be as good as the bad guys. So 
congrats on that effort.
    My questions are as follows. No. 1, I want to talk about 
the trade agreements. I asked you last time had your department 
had an opportunity to work with Ambassador Ron Kirk to see if 
we could engage some of these cargo screening issues, because 
last time when I asked you the question, about 2 years ago, you 
said the reason why we couldn't deploy it was because we needed 
all this global cooperation.
    So my question is: With the impending trade agreements, 
have you had an opportunity to work with Ambassador Kirk to 
make sure we can resolve these issues?
    Secretary Napolitano. To date, I have not yet been involved 
with Ambassador Kirk.
    Ms. Richardson. Okay. When could I expect that, because I 
did ask it last time when you were here.
    Secretary Napolitano. Let me look into it and we will get 
back to you as soon as possible.
    Ms. Richardson. Okay. Thank you.
    My second question has to do with the reviewing of 
allocation of grant funds. It is my understanding from the 
courts in my area that UASI Tier 1 level has changed from five 
cities to now 10. That has a lot to do with the significance in 
drops of grant funding.
    So I was just wanting to ask if you would consider 
relooking at that and seeing why has the change occurred, 
because I think one of the great things about your Department 
was that you honestly viewed things based upon their merit and 
the significance and not getting into the political, you know, 
fights that we might have here in Washington.
    So if you could review that and get back, that would be 
helpful.
    Secretary Napolitano. Yes.
    Mrs. Richardson. Thank you.
    No. 3, I wanted to talk about cargo inspection. One of my 
colleagues said, well, you know, the layered effect and all of 
that. I will admit it is kind of a personal issue, because it 
is reflective of my district.
    I would venture to argue that if, in terms of traveling by 
air, we use the same systems, you look on the computer, you are 
checking, you know, who the people are and all of that, but 
everyone isn't just simply walking through the airport. You 
still have a layer of inspection that occurs at the airport 
that we all have to go through.
    So I want to echo my concerns on, as the Ranking Member 
did, that I am just really concerned of where we are. I realize 
the chatter doesn't raise to the level as you are dealing with 
with aviation. I get all of that. But all we need is one 
problem, and suddenly things will change.
    So you were quoted as saying that you are looking to extend 
the deadline to July 2014. Do you really honestly see 
implementing this program? Or do you just think you are going 
to keep kicking the can down the road?
    Secretary Napolitano. I am hopeful that we can persuade the 
Congress that the statute itself, the statutory requirement, is 
not the best way to secure the global supply chain, and that 
there are better ways, and that we are engaged in those.
    But even given the existing statute, given that we would 
have to have agreements with, I think, 700-plus different 
ports, given the configuration of ports around the world, given 
the expense of some of the equipment that is associated by only 
focusing on what happens at the ports as opposed to the entire 
supply chain, by focusing on one area, we really don't fully 
get to the goal I think we all share, which is to make sure 
that materiel entering the United States is safe.
    So I think that this is going to have to be an area where 
we continue to work with the Congress, work with the committee 
moving forward.
    Ms. Richardson. Okay. I am going to be really quick, 
because I have one last question. Would you be open, then, to 
at least working with us, because since I have been here in the 
last 3 years, it seems like we are at the same point. You say I 
want to do it the way I have been doing it. We kind of express 
other concerns.
    What I would like to maybe say is could we all get 
together, maybe in a working session, and kind of talk about 
what are concerns and maybe come to a compromise instead of us, 
you know, just kicking the football back and forth.
    Secretary Napolitano. Yes. I know we have briefed the 
committee multiple times on what we are doing on cargo, but we 
would be happy, as always, to work with the committee.
    Ms. Richardson. Okay.
    Mr. Chairman, could I have an additional 30 seconds?
    Chairman King. Thirty seconds to the lady.
    Ms. Richardson. Madam Secretary, as I mentioned, there was 
an oil spill in my district. I was not notified by DHS or 
anyone. I read it in the newspaper.
    So what I would like to talk about, as I said, is 
continuity of Government of what--and I am willing to work with 
you. It is actually a passion of mine that I see as a huge 
weakness, from Hurricane Katrina and so many other areas. But I 
still don't think we have mastered how we engage this end of 
the rail in these disasters. So I would like to work with you 
on that.
    Chairman King. Okay.
    Ms. Richardson. Thank you.
    Chairman King. The time of the gentlelady has expired.
    The gentleman, Mr. Duncan, is recognized for 5 minutes.
    Mr. Duncan. Thank you, Mr. Chairman.
    Ms. Napolitano, thank you for coming back before this 
committee. I reviewed in the written statement that you gave us 
the six identified Department of Homeland Security missions. I 
appreciate you breaking that out for us.
    Last month, this committee had the opportunity to discuss 
the border situation, the Southern border situation mainly, 
with Chief Fisher. At that time, I read the definition of 
operational control from the Secure Fence Act of 2006, in which 
Congress defined operational control as the prevention of all 
unlawful entries into the United States, including entries by 
terrorists, other unlawful aliens, instruments of terrorism, 
narcotics, and other contraband.
    This definition is brought more to the forefront with the 
understanding that Hezbollah is in cahoots with a cartel. I am 
concerned, as many Americans, that they are using smuggling 
routes of the cartel to bring God knows what into this country.
    The Customs and Border Patrol is publishing data stating 
that only 44 percent of the Southwest border is under 
operational control. We see that a border State, Arizona, is 
suing the Federal Government, your home State.
    Yet, earlier, Chief Fisher had earlier stated that they had 
acceptable level of operational control. I stated to him the 
acceptable level of operational control to the American people 
means that we control who enters this country.
    On February 11, a Arizona sheriff, 34-year law enforcement 
veteran, Larry Dever, he said this. ``I can't stand publicly 
and endorse a political initiative part of this,'' said Dever, 
whose county borders Mexico in the southeast Arizona area. ``I 
can't stand up side by side with people who say that this 
border is safe and secure when it is not.''
    This came only a few days after the U.S. Customs and Border 
Protection Commissioner Al Bersin came to Arizona to meet with 
border sheriffs to discuss border security. Dever stated that 
the President--the administration--``was seeking to sell the 
belief to the American people that the border is safe and 
secure as part of a publicity campaign.'' Those are his words.
    So my question for you this morning is just a further 
understanding of what Chief Fisher and this administration and 
your office means when they talk about operational control.
    Secretary Napolitano. Well, Representative, as I have said 
many times, what we want to have is a safe and secure border 
zone from San Diego to Brownsville. No one is more familiar 
with that Arizona border than I am. I have worked that border 
as a prosecutor, as a Governor, and now as the Secretary since 
1993. So I have a lot of years as experience with that border.
    There are disagreements among the sheriffs along that 
border, by the way, so I would just simply note that. Not all 
the sheriffs are in agreement with Sheriff Dever, who I also 
worked with for many years.
    But here is the point that I think is so important. The 
point is, is that we have a pathway forward on that border. It 
includes manpower. It includes technology. It includes 
infrastructure. It is a combination of all three of those 
things.
    It also includes effective interior enforcement of our 
Nation's immigration laws, because the big driver of illegal 
immigration across that border is the opportunity to work in 
the United States, make a wage, and send it back to another 
country, primarily Mexico right now.
    So that is what the pathway forward is. That is what the 
plan to build-up has been. That is why the President has put 
more Border Patrol agents in his budget than any time in our 
Nation's history.
    That is why he put more funding into technology. That is 
why he has put more funding into ICE. That is why he has 
supported the largest deployment of technology at the Southwest 
border in our Nation's history. That is the pathway forward. 
That is the plan.
    Unfortunately, the H.R. 1 that passed here contradicts that 
plan. It goes backwards. It will take us back to where we were 
several years ago in terms of the actual resources that are 
available at the Southwest border. So I would respectfully ask 
this committee to look at the continuing resolution and look at 
our fiscal year 2012 budget requests with those priorities in 
mind.
    But I think we all share the same goal. The goal is to have 
a safe and secure border. The goal is to have a border through 
which legitimate travel and trade can go back and forth. We 
have some huge land ports of entry along that border.
    Mexico is the No. 1 or 2 trading partner of, I think, 23 of 
our States. So that needs to be facilitated, even as we 
increase the manpower and equipment laydown between the ports.
    Mr. Duncan. Well, I thank you. I think our goal is the same 
in securing the border, determining what comes in here.
    Thank you, Mr. Chairman.
    Chairman King. The gentleman's time has expired.
    The gentleman from Massachusetts, Mr. Keating, is 
recognized for 5 minutes.
    Mr. Keating. Thank you, Mr. Chairman.
    Madam Secretary, thank you for being here today.
    Last month we had the chance to discuss the aftermath of 
the death of a 16-year-old, Delvonte Tisdale, tragically, whose 
mutilated body was found in eastern Massachusetts in the direct 
line of a 737 commercial flight that left Charlotte on its way 
to Logan.
    Forensic experts have ascertained that Mr. Tisdale reached 
the perimeter at Charlotte Douglas International Airport, hid 
before takeoff in the wheel well of the airplane that was bound 
for Boston Logan International Airport.
    To date, there has been no video surveillance that surfaced 
that could detail how Mr. Tisdale was able to breach airport 
operation in that area in Charlotte Douglas. The case surely 
suggests that there may be perimeter and airfield access 
vulnerabilities in other airports as well. Now, this week 
Charlotte Mecklenburg Police Department released a public 
version of their investigation.
    Indeed, the police department's investigation, the local 
police department's investigation concluded there is a need to 
strengthen the perimeter security in many respects.
    I am glad that this airport, a major hub, will be working 
with TSA to implement these new security measures. I am sure 
that you agree that if there is a security breakdown in one 
airport, particularly a hub such as Charlotte Douglas, that 
countless airport and cities are vulnerable. So I had four 
questions I would just like to pose.
    I would like to make sure, if it is possible, that the 
Members of this committee are briefed on the classified police 
department report that they had issued. Can you agree to work 
with our committee in that respect?
    Secretary Napolitano. Yes, it is a matter that is still 
under investigation, how that particular breach occurred, so I 
am not at liberty to discuss it in a public setting, but we 
will explore when the investigation is complete how we go about 
sharing it.
    Mr. Keating. My understanding is that the local police 
investigation is complete from local officials. Could you share 
that local police report, at least, with this committee?
    Secretary Napolitano. Representative, let me look into 
this. That was not my understanding, so let me look into that.
    Mr. Keating. Thank you.
    Ranking Member Thompson and myself asked TSA to conduct its 
own investigation in this matter. Now that the TSA has the 
report from the police department, when will TSA commence that 
investigation?
    Secretary Napolitano. Well I believe that TSA--their 
investigation is underway. In addition, you know, we learn from 
all these incidents. You know, this is a--you know every time 
there is a breach of whatever type, it is something that we 
say, well, okay, what happened here? Is it capable of 
repetition? What needs to happen systemically?
    You are right to point out the hub nature of Charlotte, if 
that is indeed where this individual got on board. It is 
something that reminds us of, you know perimeter, which as you 
know, the TSA doesn't control the perimeter. It has standards 
that airports are supposed to abide by with respect to 
perimeters. So we are looking at all of that afresh in light of 
this incident and any kind of incident.
    Mr. Keating. Well let me try and, for the sake of time, 
combine my third and fourth questions together. Let me express 
this. All the way along I have a greater sense of urgency when 
a breach of this nature occurs that could threaten not only 
this airport, but other airports than I suppose that many other 
people, it seems. But to me I am a bit dumbfounded that that 
sense of urgency hasn't resulted in quicker action.
    I have had the chance on my own, and with some assistance, 
to look at some of the minimum standards, which I will not 
discuss, because I don't think it is great to discuss publicly 
what some of the minimum standards are in terms of the 
perimeter at airports.
    But suffice it to say looking at those from my perspective 
that I have been able to view, I am not satisfied and I will 
tell you the truth, I don't think the public would be satisfied 
if they knew what those minimum standards are.
    My question to you is: Given the minimum standards and 
given the fact that you just expressed that there is another 
jurisdiction often involved in implementing those standards, 
what can we give you for authority, if necessary, to make sure 
there is a seamless approach to making sure those perimeter and 
tarmac areas are as secure as they should be? Because my view 
of what happened in Charlotte clearly indicates that there is a 
major breach.
    In a bank robbery you can go back after someone did it and 
get video tape, forensic evidence. There is no sign in the 
videotape from anything I have seen that they can even locate 
how he did it, yet he did.
    So I see a major problem, and we are going to work with you 
as a committee to see if we can give you more authority, if 
necessary, more resources, if that is necessary. But to me that 
is a profound danger to the traveling public where they are 
barraged at the gate, which is fine, and we all accept those 
kind of intrusions, but you look out the window at the tarmac 
and perimeter and, frankly, I don't feel safe when I am taking 
a plane.
    Chairman King. The time of the gentleman has expired.
    In consultation with the Ranking Member, we are asking 
unanimous consent to have all future question periods limited 
to 3 minutes, so the Secretary can make it to the White House 
for her meeting with the President of Mexico.
    Secretary Napolitano. We will work with the committee on 
this.
    Chairman King. Thank you.
    Mr. Keating. Thank you.
    Chairman King. Without objection, the time limit is now 3 
minutes to the gentleman from Florida, Mr. Bilirakis.
    Mr. Bilirakis. Thank you Mr. Chairman. I appreciate it.
    Thank you, Madam Secretary.
    Getting back to the student visa issue, describe the 
enhanced monitoring capabilities of SEVIS-2 as opposed to 
SEVIS-1. If you can tell me when--I know the program, the 
system has been delayed. It hasn't been deployed, scheduled to 
be deployed last year.
    Give me a time line: When do you think this will be 
implemented? What are we doing? What is ICE doing to monitor, 
enhance monitor these individuals in the mean time?
    Secretary Napolitano. Well, I will get back to the exact 
time line Representative, but you know, as I mentioned earlier 
at this hearing, ICE is able, under the current SEVIS system to 
monitor, to monitor for suspicious activity reporting in bank 
accounts and the like, and that is indeed one of the ways in 
which this individual was detected.
    Mr. Bilirakis. Okay. What is the current level of 
coordination and information sharing between DHS and the State 
Department regarding student visa issuance? Then, again, why 
didn't the President--actually the budget is flat on the visa 
security units, and I know we have identified--I think there 
are 17 that are actually in place, and I know we have close to 
70 identified high-risk areas in the world.
    Can you explain to me why? Is this not a priority of this 
administration?
    Secretary Napolitano. Well, all issues of security are a 
priority and all of them have a sense of urgency about them in 
reference to the prior question. I think we put ICE individuals 
into embassies upon agreement with the State Department as to 
where they should go, and we have requested funding for where 
we have agreements.
    Mr. Bilirakis. Okay, thank you.
    I will yield back in the interest of time. Thank you.
    Chairman King. Thank the gentleman.
    The gentlelady from New York, Ms. Clarke, is now recognized 
again.
    Ms. Clarke of New York. Thank you very much, Mr. Chairman.
    It is so good to see you, Secretary Napolitano. Thank you 
for your forthrightness in the responses to what is a very 
challenging budget. I was sitting here and just thinking that 
some of what our concerns are almost diametrically opposed to 
what has come forth in the House-passed CR. It is interesting 
to hear the conversation.
    But I have a question about cybersecurity. The National 
Cyber Security Division is currently planning to deploy five 
Einstein monitors and five key nodes on the dot-gov domain that 
should be used to protect and to detect intrusions on computer 
systems. If the continuing resolution is adopted by the 
Congress and you don't receive your requested funds for fiscal 
year 2011, how would it affect this much-needed project and the 
request for $236.6 million in the fiscal year 2012 budget?
    Secretary Napolitano. It will cause significant delay, 
Representative. I think for the deployment of Einstein 3, we 
would see that moved back at least 2 or 3 years in terms of our 
ability to deploy it. Talk about an area where there is 
urgency, the cyber area has, has real urgency associated with 
it, so we hope we can work with the Congress to revisit that 
issue.
    Ms. Clarke of New York. Yes, I think that that is an area 
of concern that both sides delay the radar for whatever 
reasons, and it is going to take, I guess, us, as my father 
would say, to feel it before we realize how much of a priority 
it is.
    I want to move quickly to interoperability and the whole 
question of the D Block spectrum. There seem to be dueling 
opinions around the D Block spectrum and I see that, you know, 
you and the President have been focused on reserving in support 
of the reallocation of the D Block to public safety.
    Can you elaborate to the committee the level of involvement 
the Department has had in the D Block debate and how you 
envision fiscal year 2012 budget helping the Department and the 
Office of Emergency Communication to preserve that for public 
safety communication networks?
    You know, this is a key area in light of what we have seen 
and what we have witnessed during the 9/11 terrorist event and 
Hurricane Katrina.
    Secretary Napolitano. Yes, Representative. We have been 
very involved ever since the FCC initial decision was announced 
that they wanted to auction off the D Block.
    Ms. Clarke of New York. That is correct.
    Secretary Napolitano. The Departments of Justice and 
Homeland Security, we both raised our hand and said, ``Wait, 
there is a public safety issue involved here.'' We have reached 
agreement within the administration. Absolutely, the D Block 
ought to be reserved for public safety. I believe we will all 
be working with the Congress on the statutory changes needed to 
effectuate that.
    Ms. Clarke of New York. Fabulous.
    Just in closing, Madam Secretary under the continuing 
resolution, the DNDO would lose at least $20 million for 
acquisition this fiscal year. I am coming around to the issue 
of Securing the Cities and how this would impact Securing the 
Cities, human portable detectors, and other deployments. Can 
you share that with us, please?
    Secretary Napolitano. Yes, the budget for (Domestic Nuclear 
Detection Office) DNDO would affect both of those things and, 
as I noted in my opening statement, we have asked for money in 
the fiscal year 2012 budget to not only continue Securing the 
Cities, but to add to it.
    Chairman King. The time of the gentlelady has expired.
    I would add that in the CR, Securing the Cities is 
protected, I believe. We can discuss that, as I said to the 
Secretary, before, and we will----
    Secretary Napolitano. Yes, I was referring to the other 
detection----
    Chairman King. Securing the Cities is protected.
    Secretary Napolitano [continuing]. But it is true that in 
the fiscal year 2012 budget, Securing the Cities is sustained--
--
    Chairman King. Right.
    Secretary Napolitano [continuing]. And we want to add 
another city to it.
    Chairman King. Right.
    The gentleman from Arizona, Mr. Quayle, is recognized for 3 
minutes.
    Mr. Quayle. Thank you, Mr. Chairman.
    Thank you, Madam Secretary, for coming here.
    There has been a lot of talk I think in this talk with the 
budget of 2012 with the CR that just went through the House and 
will be going through the Senate and coming back, probably.
    But one of the focuses of both the media and here this 
afternoon has been what effects it is going to have on securing 
the Southwest border. I just wanted to give a little lay of the 
land of how this CR is going, because from my looking at it, it 
is going to be adding more border agents, not decreasing more 
border agents.
    It has increased funds for CVP by $147.9 million over what 
it was for fiscal year 2010, which was an increase compared to 
what the administration fiscal year 2011 request was. It also 
provides $550 million for fencing infrastructure and 
technology, $57.8 million for ICE to maintain new Southwest 
border hires, and no fewer than 33,400 detention beds.
    It also includes $60 million for Operation Stonegarden, 
which is the same as fiscal year 2010. Now in going forward 
with the CR and then also with the fiscal 2012, what in terms 
of priorities do you think that we should be focusing on for 
the Southwest border? Is it technology, more Border Patrol 
agents? Which do you think is most important in that regard?
    Secretary Napolitano. Well, first of all, I think there is 
a lot of--I really can't agree with the laydown you gave of the 
facts in terms of how they really affect funding for the 
Southwest border, Representative Quayle. I will be glad to get 
with you after this hearing, because time is precious.
    But I think even Senator Kyl yesterday put out an article 
expressing concern about H.R. 1 and how it affects the force 
laydown for border and immigration enforcement. So I think 
there is some bipartisan disquiet there.
    It is not a good border budget. It is not a good 
immigration budget, and we believe very strongly that just to 
keep moving in the direction we are moving is the right thing. 
The numbers that need to change are all going in the right 
direction, and dramatically so, particularly in Arizona.
    We need more manpower, we need more technology, and we need 
more funding for infrastructure put in the right places, and 
the right kind of infrastructure. It is hard to say, well, one, 
two and three. It is all of the above, because it is a system.
    Then you need to back that system up with enforcement in 
the interior of the country, which is primarily ICE. So, when 
you have that system in place, you begin to see the dramatic 
impacts that we have seeing over the past several years.
    Mr. Quayle. All right. Thank you very much.
    I yield back.
    Chairman King. The gentleman from Louisiana, Mr. Richmond, 
is recognized for 3 minutes.
    Mr. Richmond. Thank you, Mr. Chairman.
    Thank you, Madam Secretary.
    We are having an issue in Louisiana that I think rises, in 
my opinion, to a Homeland Security issue, especially when you 
talk disaster response. You talk about dredging of the 
Mississippi River, and you talk about all the ships that come 
through with petrochemicals, and so forth.
    What if those ships run aground and we have a leak then 
that falls smack-dab under your agency in terms of the 
response? Are you at all involved in making sure that our ports 
are dredged to a safe level, at least to their authorized 
level, so that we don't have that?
    Our river pilots, who navigate the ships on the Mississippi 
River, had to issue a warning in a memorandum to their pilots 
not to traverse the river at night-time, wait 'til high water, 
because of a fear of running aground and having a spill. So I 
know that agencies don't talk to each other, but that is a big 
concern of mine. Have you paid any attention to that?
    Secretary Napolitano. I am not personally familiar with 
that particular issue, or that particular port issue. But I can 
say that the Coast Guard works very directly with the shipping 
industry, with those involved--we have the captains of the 
ports, for example--and with the Army Corps of Engineers.
    Mr. Richmond. The other thing I would just like to add, 
especially as States start to deal with major budget problems, 
especially Louisiana, and we deal with our own budget problems 
up here, the grants for emergency preparedness, for event 
planning, exercises, management, and all of those things, if we 
see a reduction in those grants, is it possible that we create 
a more general pool so that the local emergency preparedness 
offices can better utilize or prioritize what they need to use 
the grants for?
    Secretary Napolitano. Well, that is one of the reasons why 
we recommended consolidating the current list of 17 to 9, to 
give localities some more flexibility to reduce the number of 
grant applications and the paperwork they have to submit. It 
was something that we asked for last year. We are asking for it 
again in the fiscal year 2012 budget.
    Mr. Richmond. Thank you.
    I yield back.
    Chairman King. Thank the gentleman.
    The Chairman recognizes the gentleman from Pennsylvania, 
the Chairman of the counterintelligence subcommittee, Mr. 
Meehan, for 3 minutes.
    Mr. Meehan. Thank you, Mr. Chairman.
    Thank you, Madam Secretary, for being with us here again, 
and for your extensive preparation. I, among many in Washington 
in the last 48 hours, have been with those who have been sort 
of dog-earing the most recent report from GAO.
    It was a pretty tough challenge in many parts of 
Government, including our own backyard here, as we all 
collectively look at the issue of homeland security. They were 
looking at overlap and fragmentation among Government programs.
    But a particular area, the area of bioterrorism--and I 
quote from the report--``at least five departments, eight 
agencies, and more than two dozen Presidential appointees 
oversee $6.48 billion related to bioterrorism.''
    Secretary Napolitano. Yes.
    Mr. Meehan. If you go deeper into it, it says at one point, 
``there is no broad, integrated National strategy that 
encompasses all stakeholders with biodefense 
responsibilities''--this is on the front end--``with respect to 
systematically identifying risk, assessing resources needed to 
address that risk, and then prioritizing and allocating the 
investment.'' So that goes to sort of our preparedness for an 
event.
    Then it says that, ``there is no National plan to 
coordinate Federal, State, and local efforts following a 
bioterror event, and the United States lacks the technical and 
operational capabilities required for an adequate response.''
    That is a tough accusation for all of us who share a 
concern about this issue. I know you represent just one of the 
multiple agencies, but this is a big challenge for all of us in 
Government. How do we begin to look at this incredible problem? 
This is a canary in a coal mine, in my mind, right now.
    How do we begin to look at the issue of a National strategy 
and get that focal point, go across the multiple agencies, but 
not only be better with our resources in terms of fiscally 
responsible, but deal with issue of appropriate preparedness 
and response?
    Secretary Napolitano. Representative, well first of all, if 
I might suggest something for the committee to consider? That 
is, I don't think it is overall helpful for GAO reports that 
are allegedly pointing out alleged vulnerabilities to be put 
out in an unclassified format. I think that is a problem. I 
think I have referenced it several times. I would respectfully 
ask the Congress to really look at that, for obvious reasons.
    Second, the issue of bio, I believe--it is very 
complicated, because you are quite correct. It does cross 
multiple agencies. You have got entities at Health and Human 
Services (HHS), you have got us, you have got the DOD. You have 
got some smaller agencies, all of which have a piece of this.
    We have been working primarily with HHS on merely trying to 
create or construct a pathway forward at the interagency level 
where bio is concerned. What I would like to do is have some of 
the people directly involved with that brief you in a 
classified setting.
    Mr. Meehan. I would thank you. That would be great. That 
would be a great opportunity to begin trying to work on 
something, whether we like it or not, that is out there now in 
public and we are going to be asked about.
    Thank you, Mr. Chairman. I yield back.
    Chairman King. The time of the gentleman has expired.
    The gentleman from Texas, Mr. Farenthold.
    Mr. Farenthold. Thank you very much, Mr. Chairman.
    Madam Secretary, I would like to personally thank you for 
being in Brownsville attending a memorial mass for Agent 
Zapata. My office has continued to be in contact with the 
Zapata family and let them know that you would be here today, 
and actually asked if they had any questions for you.
    They sent a list of 17 that definitely points out the fact 
that it is a family dedicated to law enforcement. Mr. McCaul 
has asked a couple of them, and a couple of them are in details 
that aren't appropriate for the scope of this meeting.
    But the one that I don't think was asked that I do think is 
important that we address is: What concrete steps are we taking 
to make sure that something like this doesn't happen again? Are 
those steps addressed in the budget proposal that was put 
together clearly behind the scenes before this event that I 
consider being an escalation in the war against drugs on our 
Southern border?
    Secretary Napolitano. Well, I think, first of all, thank 
you for being at the service. It was very moving and it was the 
Zapata family. You have two other--it was five sons, and I 
think two others are DHS employees, and the father is a law 
enforcement official, retired now--so really, a great 
Brownsville family and great citizens of our country.
    Moving forward, first of all, we have been working on a 
very intensive basis with the Government of Mexico and with DOJ 
on not only the investigation of the shooting of Agent Zapata, 
but what can be done to deal with some of the entire 
organizations that are now plaguing Mexico?
    What more can we do to assist the Calderon administration 
in their fight against the cartels? What more do we need to do 
to make sure that our agents are properly supported in the 
field? What more we can do in the continental United States, to 
the extent the cartels have fingerprint presences here, to go 
after them? There have been, at least in open source reporting, 
I think I can say that there have been a number of activities 
on all of those fronts.
    Mr. Farenthold. I would urge you to stay in close 
communication with the Zapata family. They are law enforcement 
agents that will work with you and have the curiosity that only 
a law enforcement family might have there.
    I don't have a whole lot of time left. The budget indicates 
that there is actually no funding in the request for UAVs that 
have been found to be effective on the border. Is there a 
reason for that omission?
    Secretary Napolitano. I believe--let me clarify that for 
you--I believe there is funding for two more UAVs at the 
border. We now have the capability to traverse the entire 
border by UAV. So we have greatly expanded that capability.
    Mr. Farenthold. Well, I am out of time. I do have some more 
questions. We will probably follow up with them at some future 
point in time.
    Thank you very much.
    Secretary Napolitano. Fair enough. Thank you.
    Chairman King. Madam Secretary, thank you very much for 
your time. I wish you good luck at the White House with the 
President of the United States and the president of Mexico. 
Members of the committee may have some additional questions. I 
would ask if they could respond to you in writing, and if you 
would respond to them.
    The hearing record will remain open for 10 days, without 
objection.
    The committee stands adjourned.
    Secretary Napolitano. Thank you very much, Mr. Chairman.
    [Whereupon, at 11:35 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

       Questions From Chairman Peter T. King for Janet Napolitano
    Question 1. Madam Secretary, the committee was impressed to learn 
of the Office of Emergency Communications' extensive outreach to 
stakeholders to assist them in meeting the requirements of Goal 1 and 
Goal 2 of the National Emergency Communications Plan (NECP). 
Specifically, the committee was encouraged that OEC worked with so many 
local first responders and leaders to assess the UASIs in Goal 1, and 
now the Nation's counties in Goal 2. As you assess the fiscal year 2012 
budget for the Department, what commitments can you provide to the 
committee that OEC will maintain its level of outreach to the 
stakeholders to meet Goal 3 of the NECP--which states that ``by 2013, 
75 percent of all jurisdictions are able to demonstrate response-level 
ecomms within 3 hours, in the event of a significant incident as 
outlined in National planning scenarios''?
    Answer. The Department of Homeland Security (DHS) supports the 
Office of Emergency Communications' (OEC) efforts to advance Nation-
wide interoperable emergency communications, consistent with Congress' 
direction under Title 18 of the Homeland Security Act of 2002, as 
amended, that OEC is to conduct ``extensive, Nation-wide outreach'' to 
foster the development of interoperable emergency communications 
capabilities by Federal, State, regional, local, territorial, and 
Tribal governments and public safety agencies.
    OEC effectively used a stakeholder-driven process to develop the 
National Emergency Communications Plan (NECP), coordinating with more 
than 150 representatives from Federal, State, local, territorial, and 
Tribal governments, as well as the private sector and all major public 
safety organizations. Stakeholder involvement has continued to be a 
critical element in the implementation of the NECP, as OEC has worked 
closely with public safety agencies at all levels of government to 
implement the Plan's milestones and assess responders' capabilities as 
set forth in its Goals. DHS believes that the success of Goal 3 will 
require continued outreach and coordination with the stakeholder 
community and is committed to supporting OEC in its successful 
implementation of NECP Goal 3. This commitment is reflected in the 
fiscal year 2012 President's budget submission.
    Question 2a. According to the fiscal year 2012 budget request for 
the Department of Homeland Security, the administration has proposed to 
eliminate direct funding for the Interoperable Emergency Communications 
Grants Program (IECGP). As you know the IECGP is intended to enhance 
and improve interoperable communications at all levels of government.
    Given the continued challenges to achieve interoperability and the 
emerging technologies such as the deployment of a public safety 
broadband network, how does DHS plan to achieve the goals of the IECGP 
without the direct funding?
    Question 2b. Other than the IECGP, what else is the OEC doing to 
promote interoperability? In your response, please address OEC's 
continued commitment to meeting the goals of the National Emergency 
Communications Plan (NECP)--which drives the decisions to award the 
IECGP.
    Answer. The budget request seeks to consolidate IECGP into the 
broader grant program State Homeland Security Program (SHSP) in order 
to maximize the ability of State decision-makers to set priorities and 
to reduce the administrative barriers to grants.
    Since fiscal year 2008, the Interoperable Emergency Communications 
Grant Program (IECGP) has awarded $145,150,000 to the 56 States and 
territories. IECGP provides governance, planning, training, and 
exercise funding to States, territories, and local and Tribal 
governments to carry out initiatives to improve interoperable emergency 
communications, including communications in collective response to 
natural disasters, acts of terrorism, and other man-made disasters. 
State and local governments have used IECGP awards to fund State-wide 
Interoperability Coordinators (SWICs), develop State-wide Communication 
Interoperability Plans (SCIPs) and periodic updates, and meet the 
strategic goals of the National Emergency Communications Plan (NECP). 
The State Homeland Security Program (SHSP) and Urban Areas Security 
Initiative (UASI) allow for funding of similar efforts and indeed have 
been the primary funding sources for interoperable emergency 
communications equipment funding.
    In regard to your question about the Office of Emergency 
Communications' (OEC) other efforts to promote interoperability through 
outreach to stakeholder groups, below is a list of programs and efforts 
administered by OEC to enhance communications interoperability at the 
Federal, State, local, territorial, and Tribal levels.
    Furthermore, DHS continues to promote interoperability through the 
Science & Technology Directorate's (S&T) Office for Interoperability 
and Compatibility (OIC). OIC conducts research, development, testing, 
and evaluation (RDT&E) on existing and emerging technologies as well as 
promotes the acceleration of standards to achieve interoperability for 
local, Tribal, State, and Federal first responders.
SAFECOM Executive Committee and Emergency Response Council
  <bullet> OEC, through SAFECOM, collaborates with emergency responders 
        and policy makers across all levels of government to improve 
        multi-jurisdictional and intergovernmental communications 
        interoperability. The Executive Committee and Emergency 
        Response Council have been instrumental in the creation of key 
        documents such as the Interoperability Continuum, the SAFECOM 
        Guidance for Federal Grant Programs, and the National Emergency 
        Communications Plan (NECP).
  <bullet> Members of the SAFECOM Executive Committee and Emergency 
        Response Council promote interoperability to their respective 
        associations and the local public safety community.
State-wide Interoperability Coordinators
  <bullet> The creation of the State-wide Interoperability Coordinator 
        (SWIC) position is improving coordination of emergency 
        communications activities and investments throughout all 56 
        States and territories.
  <bullet> All 56 States and territories have identified a point of 
        contact for State-wide interoperability coordination, and 44 
        States and territories have full-time SWIC or equivalent 
        positions. These important leadership roles and planning 
        mechanisms are critical for the continued funding, 
        accountability, and execution of emergency communications 
        activities at the State and local levels.
  <bullet> OEC provides SWICs with templates and guidance documents to 
        promote interoperability within the States. OEC supports bi-
        annual meetings that allow SWICs to share best practices, 
        lessons learned, successes, and challenges related to State-
        wide Communication Interoperability Plan implementation with 
        their peers.
Regional Coordination Program
  <bullet> In 2009, OEC established the Regional Coordination program 
        to provide additional support to Federal, State, local, and 
        Tribal stakeholders across the Nation. Regional Coordinators 
        support OEC's mission by strengthening emergency communications 
        capabilities across Federal, State, local, territorial, and 
        Tribal governments at the regional level through trusted 
        relationships, collaboration, and knowledge sharing. There is a 
        regional coordinator located in each of the 10 FEMA regions.
Emergency Communications Preparedness Center (ECPC)
  <bullet> OEC promotes interoperability at the Federal level through 
        the Emergency Communications Preparedness Center (ECPC). The 
        ECPC is the central Federal coordination point for 
        interoperable and operable emergency communications.
Technical Assistance and Guidance Documents
  <bullet> OEC has implemented a technical assistance strategy to 
        ensure that all States and territories can request and receive 
        assistance, while focusing support on the States that are most 
        in need.
  <bullet> Since 2008, the 56 States and territories have combined to 
        request more than 750 individual technical assistance services 
        from OEC. These services support the priorities of the State-
        wide Communication Interoperability Plan in each State or 
        territory SCIP and the objectives of the NECP.
  <bullet> To improve emergency responders' capabilities in this area, 
        OEC's Communications Unit (COMU) training for All-Hazards 
        Communications Unit Leader (COML) and All-Hazards 
        Communications Unit Technician (COMT) has resulted in more than 
        3,500 responders being trained to lead multijurisdictional 
        communications at incidents across the Nation, including local 
        floods, blizzards, and wildfires.
  <bullet> OEC also develops guidance documents and templates that 
        promote best practices. Recent publications, available on the 
        SAFECOM website, include A Practical Guide to Narrow-banding, 
        Plain Language FAQs, National Interoperability Field Operations 
        Guide (NIFOG), and Regional Intrastate Governance Guide.
  <bullet> To support the FCC mandate to convert to narrow-band 
        operation by January 2013 OEC's Frequency Mapping Tool (FMT) 
        provides stakeholders a snapshot of their respective frequency 
        assignments directly from the FCC database.
  <bullet> Another support service OEC provides for all public safety 
        agencies to store, retrieve, and visualize radio communications 
        assets is the Communications Assets Survey and Mapping (CASM) 
        Tool.
    OEC measures progress by State, local, territorial, Tribal, and 
urban areas towards meeting the NECP Goals through several performance 
metrics:
  <bullet> The NECP Goals establish operational targets that OEC is 
        assessing through a process that engages Federal, State, local, 
        and Tribal emergency responders. To evaluate NECP Goal 1, OEC 
        conducted an assessment of response-level emergency 
        communications among public safety agencies during a planned 
        event held in each Urban Area Security Initiative (UASI) 
        regions.
  <bullet> Based on communications capabilities documented at each 
        event, since fiscal year 2008 all 60 UASIs that were funded 
        that year were able to demonstrate Goal 1 of the NECP. The Goal 
        1 assessments also showed areas for continued improvement.
  <bullet> In 2011, OEC will collect data from more than 3,000 counties 
        Nation-wide for NECP Goal 2 to determine whether non-UASIs can 
        demonstrate response-level emergency communications within 1 
        hour.
  <bullet> OEC will be using the results of the goal assessments--
        including Goal 2, which is scheduled for completion in 2011 and 
        Goal 3 in 2013--to better target resources, such as training 
        and planning, for improving interoperable emergency 
        communications Nation-wide.
Technology Advancements and Acceleration of Standards
  <bullet> Multi-Band Radio (MBR) technology provides first responders 
        with the capability to communicate on all public safety radio 
        bands. OIC has helped spark industry investment and stimulate 
        this marketplace for first responders.
  <bullet> The Voice over Internet Protocol (VoIP) project focuses on 
        connecting disparate land mobile radio IP-based systems, which 
        are used by first responder agencies to transmit voice 
        communications. By bridging these proprietary systems, OIC is 
        helping to not only achieve interoperability, but reduce an 
        agency's cost for system design and installation.
  <bullet> In 2009, OIC established the Project 25 Compliance 
        Assessment Program (P25 CAP) to ensure that emergency 
        communications equipment complies with P25 standards and thus 
        is interoperable across manufacturers. P25 CAP provides first 
        responders with a traceable method to gather P25 compliance 
        information on the products they buy. Finally, through 
        coordination with OEC, P25 CAP provides a means of verifying 
        that Federal grant dollars are being invested in standardized 
        solutions and equipment that promote interoperability for the 
        public safety community.
  <bullet> In coordination with Customs and Border Protection, OIC is 
        working to deliver converged mission critical voice, data, and 
        video capabilities merging land mobile radio and broadband 
        networks. This approach can be leveraged across all DHS 
        components, and thus end the model of expensive, stand-alone, 
        stove-piped land mobile radio networks. DHS is establishing an 
        executive steering committee (ESC) comprised of appropriate 
        members from DHS Components with radio systems and creating a 
        DHS joint tactical communication program management office that 
        includes members from each of those Components.
    Question 3a. As you know Madam Secretary, I introduced H.R. 607, a 
bill calling for the reallocation of the D-block so that more spectrum 
can be made available to public safety agencies and to promote the 
deployment of a wireless public safety broadband network. We were 
encouraged to hear of the administration's support for the reallocation 
of the D-block to support a public safety communications network.
    Does the DHS plan to seek additional budget support for the 
deployment of the public safety broadband network?
    Answer. On February 10, 2011, President Obama announced his 
Wireless Innovation and Infrastructure Initiative. In that 
announcement, he outlined the plan to develop and deploy a Nation-wide, 
interoperable wireless network for public safety. To seize this 
opportunity, President Obama is calling for an investment of $10.7 
billion to ensure that our public safety benefits from these new 
technologies: $3.2 billion to reallocate the D-block, $7 billion to 
support the deployment of the network; and $500 million from the 
Wireless Innovation Fund for Research and Development and technological 
development to tailor the network to meet public safety requirements. 
This investment, in coordination with the investment in rural buildout 
(a one-time investment of $5 billion and reform of the Universal 
Service Fund), will ensure that the rollout of wireless broadband 
services in rural areas serves the needs of public safety and the 
broader community.
    Question 3b. Please explain to the committee the role of the Office 
of Emergency Communications to support the deployment of the public 
safety broadband network.
    Answer. The Office of Emergency Communications (OEC) is supporting 
the deployment of the Network in a variety of ways. These include 
helping to set the broad policy framework for the Network and ensuring 
that framework aligns with existing emergency communications policy, 
coordinating among stakeholder groups on broadband issues, developing 
and aligning broadband grant policies with current programs that 
support emergency communications, and providing technical assistance to 
jurisdictions that have received Federal Communications Commission 
(FCC) waivers to begin deploying public safety broadband facilities and 
other early adopters of broadband solutions to ensure that their 
activities remain aligned with the vision of a nationally interoperable 
network.
    Policy.--As noted in more detail below in response to the last 
subsection of this question, OEC is in the process of updating the 
National Emergency Communications Plan (NECP) through the addition of a 
broadband addendum, which will identify key challenges and recommend 
near-term actions to foster the integration of broadband technologies 
and data capabilities to address emergency responders' tactical and 
operational needs. In addition, this addendum will propose further 
actions to support current interoperability efforts, and ensure that 
existing communications capabilities continue to function until 
broadband networks are ready to provide the mission-critical 
capabilities that public safety requires.
    Coordination.--OEC is using its existing stakeholder bodies to 
ensure that the views and requirements of the public safety community 
are fully represented in Network broadband planning and implementation 
efforts. These outreach activities include the SAFECOM Executive 
Committee and Emergency Response Council (EC/ERC), State-wide 
Interoperability Coordinators (SWICs), the Emergency Communications 
Preparedness Center (ECPC), and the One DHS Committee on Emergency 
Communications. OEC also participates in regular conference calls with 
the Public Safety Spectrum Trust Operators Advisory Committee, a group 
comprised of the 700 MHz waiver jurisdictions.
    The Department of Homeland Security (DHS) also hosted a Public 
Safety Communications Planning Forum in September 2010. The forum 
brought together more than 100 representatives from Government, 
associations, public safety, and industry to address key issues related 
to the development and deployment of a Nation-wide public safety 
broadband network. Discussion topics included operational requirements, 
funding, standards, spectrum requirements, and governance for the 
network.
    A working group, comprised of SAFECOM members and SWICs, is 
currently developing an educational brochure to help elected and budget 
officials understand where public safety currently stands regarding 
land mobile radio and broadband, where it hopes to go in the future, 
and the challenges that exist. OEC will also leverage SAFECOM members 
and SWICs to provide input on the policy, grants, technical assistance, 
and guidance document activities described in this section through 
additional working groups and regular stakeholder meetings.
    ECPC activities include the identification of Federal broadband 
requirements, development of a consolidated view of emergency 
communications assets, resolution of associated legal and regulatory 
barriers, development of coordinated departmental positions on pending 
broadband regulatory matters and rulemakings, and establishment of 
standardized grant guidance and processes. For the coming year, the 
ECPC has identified the development of broadband standards and research 
and development as strategic priorities.
    Concurrently, the One DHS for Emergency Communications Committee, 
comprised of senior executives across DHS headquarters and component 
entities, is working collectively to provide consolidated departmental 
inputs into Federal interagency efforts, as well as to develop 
strategies for broadband technology migration (e.g., transition from 
current land mobile radio technology). OEC will also work with 
jurisdictions to incorporate deployed broadband technologies into 
State-wide Communication Interoperability Plans through the development 
of a guidance document described below.
    Finally, OEC is drafting a suite of wireless broadband guidance 
documents, which are intended for SWICs, urban area and regional 
interoperability coordinators, public officials and executives, and 
emergency responders. The documents are to support current NECP 
initiatives on interoperability planning and will provide emergency 
response stakeholders with a reliable and comprehensive source of 
information about wireless broadband in the emergency response 
environment.
    Grants.--OEC has made significant strides in improving coordination 
of Federal emergency communications grants policy through its 
administration of the ECPC Grants Focus Group and its development of 
the annual SAFECOM grants guidance. OEC utilizes stakeholder input from 
State, local, territorial, and Tribal responders in those activities. 
OEC's current grant guidance contains a number of key provisions 
pertaining to broadband deployment, and the guidance developed for new 
Federal grant programs or financial support for the deployment of the 
Nation-wide Public Safety Broadband Network should build upon these 
provisions and continue to leverage the success of these coordination 
efforts.
    Technical Assistance.--OEC has developed a wireless broadband 
technical assistance offering and has included that offering in its 
fiscal year 2011 Technical Assistance catalog. This offering will 
assist State, local, territorial, Tribal, and regional users to 
understand and implement options for the use of broadband technology in 
public safety. The offering, which will be tailored to an audience's 
specific needs, provides a range of services including informational 
briefings, development of governance models and standard operating 
procedures, project planning, and engineering support.
    Question 3c. Which DHS component serves as the lead on the 
deployment of the public safety broadband network?
    Answer. The Office of Cybersecurity and Communications (CS&C) 
within the National Protection and Programs Directorate is the 
Department's overall lead in regards to issues related to the 
deployment of the Public Safety Broadband Network. CS&C coordinates 
closely with DHS operational and headquarters components on issues 
related to the Public Safety Broadband Network through the One DHS 
Emergency Communications Committee. Through the One DHS Committee, DHS 
is working collectively to provide consolidated departmental inputs 
into Federal interagency efforts, as well as to develop strategies for 
broadband technology migration.
    Question 3d. What is DHS, and OEC in particular, doing to ensure 
that the NECP--which serves as the Nation's roadmap to improve 
emergency communications capabilities at all levels of Government--is 
instructing all the key partners involved in the deployment of the 
National Broadband Plan (NBP)?
    Answer. OEC developed the NECP in coordination with more than 150 
representatives from Federal, State, local, territorial, and Tribal 
governments, as well as major public safety organizations and the 
private sector. Many of these public safety organizations also 
participated in FCC forums to develop the National Broadband Plan. 
Since the NECP's release in 2008, OEC has worked with its partners at 
the Federal, State, local, territorial, and Tribal levels to implement 
the Plan's goals and milestones. As of April 1, 2011, more than 85 
percent of the NECP milestones were achieved, and all Urban Area 
Security Initiative (UASI) regions met Goal 1 of the Plan. OEC is 
currently working with State, local, Tribal, and territorial 
jurisdictions to implement Goal 2 of the NECP.
    OEC is leading the Department's efforts to update the NECP in 2011 
to address the integration of emerging broadband technologies with 
traditional Land Mobile Radio (LMR) technologies used by emergency 
responders. OEC is coordinating with Federal agencies, State, local, 
Tribal, and territorial jurisdictions, major public-safety 
organizations, and the private sector to develop a National Strategy 
for incorporating emerging broadband technologies while maintaining the 
mission-critical voice-over LMR that responders use every day to save 
lives. The NECP update will focus on key issues that must be addressed 
(including partnerships, planning, user requirements, standards, 
research and development, and funding) so that emerging technologies 
are interoperable, reliable, and secure for use by public safety 
personnel.
    Question 3e. Will OEC update the NECP to include emerging 
technologies such as the proposed public safety broadband plan? If so, 
when and what impact will such an update have on the NBP?
    Answer. OEC is leading the Department's efforts to update the NECP 
in 2011 to address the integration of emerging broadband technologies 
with traditional LMR technologies used by emergency responders. OEC is 
coordinating with Federal, State, local, Tribal, and territorial 
jurisdictions, major public-safety organizations, and the private 
sector to develop a National strategy for incorporating emerging 
broadband technologies while maintaining the mission-critical voice-
over LMR that responders use every day to save lives. The NECP update 
will focus on key issues that must be addressed (including 
partnerships, planning, user requirements, standards, research and 
development, and funding) so that emerging technologies are 
interoperable, reliable, and secure for use by public safety personnel.
     Questions From Honorable Blake Farenthold for Janet Napolitano
    Question 1. During my line of questioning I asked you about the 
absence of funding in President's fiscal year 2012 budget to purchase 
additional Unmanned Aerial Vehicles. In your response, you stated there 
was in fact funding for ``two more UAVs at the border.'' My 
understanding is there is no such funding in the fiscal year 2012 
budget.
    Could you please clarify as to whether the fiscal year 2012 budget 
provides funding for additional UAVs. If so, have locations been 
identified as to where these additional UAVs would be flown from?
    Answer. The fiscal year 2012 President's budget does not provide 
funding for two more Unmanned Aircraft Systems (UAS). However, the 
fiscal year 2012 request includes additional funds to: Complete the 
acquisition of the two new systems funded in the fiscal year 2010 
Supplemental ($32 million); cover the first year of operations and 
maintenance; and provide for the facilities and support infrastructure 
associated with the expansion of UAS operations on the Southwest 
border, principally from the Naval Air Station, Corpus Christi, TX.
    U.S. Customs and Border Protection (CBP) Office of Air and Marine 
(OAM) operates UAS from Cape Canaveral, FL, Corpus Christi, TX, Grand 
Forks, ND, and Sierra Vista, AZ. CBP OAM asset bed-down, area of 
operations, and assigned tasks are based on continuing and deliberate 
consideration of shifting threats to National Security. As such, a 
decision has not been made where the next two UAS will be deployed once 
CBP takes possession of these assets late this calendar year. DHS and 
CBP remain committed to maintaining flexible deployment capability of 
these National assets to respond to changing and emerging threats.
    Question 1b. How many UAVs does the Department plan on purchasing 
and maintaining over the next 2 years?
    Answer. DHS plans to have purchased and maintain a total of 10 UAS 
through fiscal year 2014. As of February 2011, OAM has seven 
operational MQ-9 Predator B UAS. Five UAS are the land variant, 2 are 
maritime variants. Two additional land variant UAS will be purchased 
with fiscal years 2010 supplemental funds and be delivered in calendar 
year 2011. A third maritime variant UAS will be on order shortly. For 
an expected delivery in early 2012.
    Question 2a. The Customs and Border Patrol Office of Air and Marine 
recently took possession of a Predator in Corpus Christi. These 
Predators are considered by law enforcement at the Federal, State, and 
local level to be a vital force multiplier in our on-going efforts to 
gain operation control of the Southwest border.
    Is the Predator currently operational?
    Answer. The Unmanned Aircraft Systems (UAS) stationed at Naval Air 
Station (NAS) Corpus Christi is operational and capable of supporting 
border-centric missions with its full array of optical and infrared 
video systems via a satellite command link. These existing capabilities 
regularly satisfy requirements for UAS border security missions.
    Question 2b. How many land operations has it run along the Rio 
Grande?
    Answer. U.S. Customs and Border Protection (CBP) has supported over 
61 operations to date utilizing UAS resources located at NAS Corpus 
Christi.
    Question 2c. How many maritime operations has it conducted in the 
Gulf?
    Answer. The maritime radar designated for the UAS stationed at 
Corpus Christi NAS is undergoing engineering modifications and is 
planned for installation in mid-summer of 2011. The ground control 
station (GCS) at Corpus Christi is being modified so that it may also 
leverage the functionality of this maritime radar. The GCS modification 
is scheduled to be completed by late calendar year 2011. Until that 
time, collection with this UAS along the border or near the Gulf coast 
is limited to employment of the high-resolution electro-optical and 
infrared video systems, which are best suited for land-based missions. 
Despite the restricted maritime capability of this system while radar 
and GCS modifications are taking place, the UAS at Corpus Christi NAS 
has recently supported a USCG requested maritime search and rescue 
operation near South Padre Island for an individuals that had been 
pulled out to sea by rip currents. Similarly, when the Guardian UAS at 
Cocoa Beach, Florida, was limited to its electro-optical and infrared 
video systems, it participated in the Gulf surveillance operations 
following the Deepwater Horizon incident; successfully completing 3 
maritime missions and flying over 34 hours in support of National 
imagery requests.
    Question 3a. The Predator operations are planned and conducted by 
CBP, correct?
    Answer. Predator operations are planned and conducted by U.S. 
Customs and Border Protection (CBP); some with Coast Guard UAS-trained 
aircrew participation. These operations are conducted in coordination 
with the organization planners from any agency requesting surveillance 
support.
    Question 3b. How does CBP coordinate where and when these 
operations take place with State and local law enforcement prior to an 
operation?
    Answer. DHS, as well as CBP Office of Air and Marine, maintain a 
productive working relationship with State and local law enforcement, 
including with the employment of the Unmanned Aerial Systems (UAS). For 
example, in Texas, State and local intelligence requirements are 
solicited through a variety of mechanisms conducive to the customer, 
including teleconferences and regular meetings held at the El Paso 
Intelligence Center (EPIC) and at multiple CBP locations across the 
State. UAS mission coordination is an on-going process, taking into 
consideration such elements as desired outcomes, target access and time 
constraints, weather, and mission priorities.
    Question 3c. Also, how does CBP share the information, during an 
operation, with State and local law enforcement?
    Answer. DHS and CBP have invested heavily to ensure real-time 
information is available to the customers the UAS supports, including 
providing State and local law enforcement access to DHS BigPipe, an 
unclassified web portal that enables registered users to monitor UAS 
video and geo-referenced metadata as it is being collected. As another 
example, CBP and Texas Department of Public Safety have established 
robust law enforcement radio communications with associated frequencies 
and encryption to allow real-time coordination between UAS crews and 
State law enforcement agents.
    Question 3d. Are they able to watch the real-time feeds and act on 
the timely intelligence?
    Answer. Yes, the advanced DHS BigPipe system, which allows CBP's 
partners to watch the UAS video feeds in real time, dramatically 
improves the options for actionable law enforcement.
    Question 3e. Are these Predator flights pre-coordinated to allow 
State and local law enforcement to run concurrent operations to boost 
the effectiveness of these flights?
    Answer. Predator flights are pre-coordinated to allow partners 
including Federal, State, and local law enforcement agencies to run 
concurrent/integrated border security, commercial enforcement, and 
trade facilitation operations.
    Question 4a. I have heard that the administration plans to end the 
deployment of 1,200 National Guard currently deployed along the 
Southwest border with Mexico in June. Was this your recommendation to 
the President?
    Answer. National Guard personnel have been providing support to law 
enforcement in accordance with the Federal Southwest Border Security 
Implementation Plan. The Plan synchronizes, to the extent possible, the 
employment of Federal law enforcement and law enforcement support 
resources along the Southwest border for the current year. The Plan is 
designed to optimize the augmentation of the 1,200 National Guard 
personnel for up to 1 year.
    Question 4b. Is it fair to say that the drug cartels are still 
smuggling drugs and humans northbound across the border?
    Answer. While our work is not yet completed, every key measure 
indicates the progress we are making along the Southwest border. As a 
key indicator of illegal immigration, Border Patrol apprehensions have 
decreased 36 percent in the past 2 years, and are less than a third of 
what they were at their peak. DHS has matched these decreases in 
apprehensions with a 16 percent increase in seizures of drugs compared 
to the previous 2 years.
    Question 4c. Kidnappings and murders are still a daily occurrence. 
Cash and weapons still flow southbound?
    Answer. DHS's mission is to ensure a homeland that is safe, secure, 
and resilient against terrorism and other threats. Along with the 
record apprehensions and seizures of drugs compared to the previous 2 
years, the seizure of illegal currency has increased 35 percent and 28 
percent increase in the seizure of weapons.
    Question 4d. What matrix, criteria, benchmarks, are you, Secretary 
Gates, and the administration using to justify pulling these troops off 
the border?
    Answer. The level of National Guard support has been carefully 
calibrated to maximize effectiveness and efficiency in the face of both 
the existing threats and the anticipated addition of law enforcement 
personnel and resources, including more than 1,000 additional Border 
Patrol agents being brought on line as a result of the Southwest border 
security supplemental funding provided by Congress in the fall of 2010.
    Question 5. Is there not a potential for an increase in border 
violence, and are you not putting Texans living along the border in 
harm's way, if we pull these troops off the border?
    Answer. With the aid of the Southwest border security supplemental 
funding, we are deploying additional personnel to the border, including 
1,000 new Border Patrol Agents, 250 new Customs and Border Protection 
Officers at our ports of entry, and 250 new Immigration and Customs 
Enforcement agents focused on transnational crime. We are also working 
closely with our Mexican partners to dismantle transnational criminal 
organizations and guard against spillover effects into the United 
States.
    Question 6. Especially at a time when our Governor has been 
requesting 1,000 National Guard in Title 32 status to be deployed along 
the border until CBP stations another 3,000 agents in Texas?
    Answer. Over the past 2 years, the Department of Homeland Security 
has dedicated historic levels of personnel, technology, and resources 
to the Southwest border. In its 86-year history, the Border Patrol is 
better staffed having doubled the number of agents from approximately 
10,000 in 2004 to more than 20,500 in 2010. The number of Border Patrol 
Agents along the Southwest border has been increased to 17,600, which 
is nearly an 85% increase from 2004. In addition, Immigration and 
Customs Enforcement has deployed a quarter of its personnel to the 
Southwest border.
     Questions From Honorable Laura Richardson for Janet Napolitano
    Question 1a. You were recently quoted as saying that the Department 
of Homeland Security will push back the 100% container screening 
deadline from July 2012 to July 2014.
    What was the justification for this?
    Question 1b. Why would we not want 100% of the containers entering 
our country to be screened as soon as possible?
    Question 1c. Will the July 2014 be a firm deadline or will it be 
delayed again?
    Answer. One of DHS' primary National security interests is to 
prevent adversaries from smuggling a nuclear weapon into the United 
States. This is also the motivation behind the provision in the 9/11 
Act requiring all U.S.-bound maritime containers to be processed 
through radiation detection systems and imaging equipment at foreign 
ports before being loaded onto vessels. DHS agrees with the motivation 
behind the 9/11 Act provision and remains committed to the continued 
support and deployment of scanning procedures and equipment abroad 
under risk-based, feasible, and sustainable models.
    However, DHS has also outlined the significant challenges 
associated with the full implementation of a scanning regime as 
envisioned in the 9/11 Act provision. These challenges were experienced 
during several years of operational testing in several foreign ports 
under the Secure Freight Initiative (SFI). Despite the considerable 
efforts of the Department, our efforts under SFI and continued dialogue 
with industry and foreign government partners have led DHS to conclude 
that 100% scanning as prescribed by the 9/11 Act provision is unlikely 
to be achieved soon, if at all. Therefore, DHS anticipated the need to 
employ the authorized extensions as we approach the 2012 deadline.
    As we move forward, it is important to underscore that maritime 
cargo containers are only one of a number of potential ways that 
terrorists or other adversaries could exploit to bring a nuclear device 
into the United States. Even if scanning could guarantee the security 
of all maritime containers, focusing a disproportionate amount of our 
efforts and resources on maritime cargo does not address other 
significant vulnerabilities. In combating the radiological and nuclear 
threat, we always keep in mind a pair of principles: First, that a 
layered approach is more effective than a single point of security; and 
second, that risk management is a critical tool we can use to make sure 
we are addressing this threat effectively. We have implemented a number 
of programs structured around these principles. We gather intelligence 
regarding the intent and capability of terrorists and other 
adversaries. We control and secure nuclear material at its source. We 
interdict illicit acquisitions. We detect and prevent smuggling into 
the United States. We also conduct extensive activities to prepare for 
any potential incident. The deployment of scanning systems both 
domestically and abroad represents only a piece of a much bigger 
picture.
    Under the provisions of the 9/11 Act, the Secretary of DHS must 
submit a certification for a 2-year extension to Congress no later than 
May 2, 2012, 60 days prior to the statutory deadline of July 1, 2012. 
Then, 60 days following the Secretary's certification to Congress, the 
extension shall take effect and remain valid for a period of 2 years. 
At this time, several of the conditions that would require DHS to seek 
an extension to the deadline are anticipated to be in existence for the 
foreseeable future. This includes the lack of available technology and 
likely negative impacts on the free flow of legitimate commerce. 
Although we anticipate seeking an extension to the 2012 deadline, DHS 
will work with Congress to determine the best approach and next steps 
beyond 2014.
    Question 2. Last week a Libyan tanker in the Port of Long Beach 
spilled 700 gallons of oil. I found out about the spill from our local 
newspaper. What is DHS's process for notifying local, State, and 
Federal officials about incidents that occur in their jurisdiction?
    Answer. Under the National Response System, the National Response 
Center (NRC) is the primary Federal point of contact for reporting oil 
and chemical spills. As stated in 40 CFR 110.6, ``Any person in charge 
of a vessel or of an onshore or offshore facility shall, as soon as he 
or she has knowledge of any discharge of oil from such vessel or 
facility in violation of section 311(b)(3) of the Act, immediately 
notify the National Response Center (NRC) (800-424-8802; in the 
Washington, DC metropolitan area, 202-426-2675). If direct reporting to 
the NRC is not practicable, reports may be made to the Coast Guard or 
EPA predesignated On-Scene Coordinator (OSC) for the geographic area 
where the discharge occurs.''
    Upon receiving notification of an oil or chemical spill, the NRC 
immediately transmits the report to the appropriate Federal On-Scene 
Coordinator and other State and Federal organizations that would need 
awareness of the report. This particular spill is classified as a Minor 
Spill (less than 10,000 gallons) in the Coastal Zone. Minor spills 
generally do not trigger further notification to the Department of 
Homeland Security (DHS).
    In addition to the Federal and State notifications by the NRC, 
local notifications about and responses to a spill would be coordinated 
by the Federal On-Scene Coordinator using the affected port's Area 
Contingency Plan (ACP). ACPs are designed to manage incidents at a 
local level, are designed by Captains of the Port and local 
stakeholders, and have lists that contain stakeholder contact 
information.
    For this incident, the responsible party notified the NRC shortly 
after the spill was discovered on February 21, 2011, thereby generating 
NRC Incident Report No. 968166. The NRC immediately transmitted the 
report to: U.S. Attorney's Office, Central District of California (Main 
Office); U.S. Attorney's Office, Central District of California 
(National Security Section); U.S. Attorney's Office, Northern District 
of California (Main Office); California Department of Fish and Game 
(Office of Spill Prevention and Response); California State Emergency 
Services, State Terrorism and Threat Assessment Center; Department of 
Transportation Crisis Management Center; Environmental Protection 
Agency Region IX (Main Office and Secondary Office); National 
Infrastructure Coordination Center; National Oceanic and Atmospheric 
Administration Reports for CA; DHS National Operations Center; Federal 
Emergency Management Agency Region 9 (Situation Awareness Unit); Coast 
Guard Intelligence Coordination Center; Coast Guard Investigative 
Service; Coast Guard Field Intel Support Team San Francisco; and Coast 
Guard Captain of the Port, Sector Los Angeles/Long Beach.
    Question 3. The FEMA Administrator has emphasized the need to 
promote the ``Whole of Community'' concept within emergency management. 
The concept highlights the important role of different non-governmental 
agencies in emergency preparedness, which includes non-profit, faith-
based, and private sector entities. Additionally, the Department 
emphasizes the important role of citizens which is demonstrated by the 
recommendation to maintain level funding for a relatively small 
allotment of $13 million for the Citizen Corp grant program. Given the 
many natural and man-made threats we face, how does the Department's 
grant realignment strategy, based on decreased dollars, consolidation, 
and elimination, support the ``Whole of Community'' concept?
    Answer. The Whole Community concept will continue to be addressed 
through the use of targeted investments in several homeland security 
grant programs, including the Emergency Management Performance Grants 
(EMPG), the State Homeland Security Grant Program (SHSP), and the Urban 
Areas Security Initiative (UASI). In coordination with FEMA's multiple 
private and public sector stakeholders, FEMA will use existing 
authorities to incorporate specific opportunities for grantees to 
develop community-oriented projects that may essentially mirror 
projects currently funded by any grants that would be subject to 
consolidation or elimination. FEMA will also modify current investment 
justifications to ensure that whole community concepts and objectives 
are reflected in project design whenever possible.
    Question 4a. Madam Secretary, it was determined that DHS was out of 
compliance with Title VI of the Civil Rights Act by not having a 
program in place to ensure that recipients of Federal funds do not 
discriminate on the basis of race, color, and national origin. The 
President's request seeks $377,000 to create a program that will bring 
DHS in compliance.
    How does the Department intend to roll out this program?
    Question 4b. Since FEMA serves as the primary Component for issuing 
Federal financial assistance, how will the Civil Rights and Civil 
Liberties Office work with FEMA, or any other Component, to implement 
this program?
    Answer. The Department of Homeland Security has not been out of 
compliance with Title VI of the Civil Rights Act of 1964. Although 
there has not been a Title VI coordinator at the Office for Civil 
Rights and Civil Liberties (CRCL), CRCL staff have conducted activities 
to assure Title VI compliance as a collateral duty. In addition, FEMA--
which as you mention is the largest source of DHS Federal financial 
assistance and therefore has the largest Title VI obligation of any 
component--has had an active Title VI program, covering complaint 
investigations and compliance reviews. Over the past several years, the 
Department has carried out several activities to implement the 
provisions of Title VI and the Department's Title VI regulations, 
including: Finalizing consolidated terms and conditions for grant 
recipients setting out their non-discrimination obligations; ensuring 
that grant guidance documents include language prohibiting 
discrimination; and drafting Title VI guidance for recipients of DHS 
financial assistance relating to the requirement of meaningful program 
access for individuals with limited English proficiency (LEP).
    With respect to this last item, the Title VI LEP Guidance, the 
Department published the draft guidance for comment in the Federal 
Register, and received numerous responses. After CRCL considered each 
response and accordingly edited the guidance, the Department of 
Justice, which has coordinating authority conferred by Executive Order 
12250, approved the final document. The final guidance was recently 
published in the Federal Register at 76 Fed. Reg. 21,755 (April 18, 
2011).
    But more is needed, and accordingly, CRCL is developing a 
coordinated Title VI program to ensure nondiscrimination in programs 
and activities that receive DHS financial assistance. A policy advisor 
working exclusively on Title VI and the development of this program 
joined CRCL in September of 2010. That position was backfilled this 
March following the original staff member's departure. CRCL has since 
hired a second staff member to focus on antidiscrimination issues in 
the context of U.S. Immigration and Customs Enforcement's (ICE) support 
of State and local law enforcement.
    While the program needs the resources requested in the President's 
budget to meet the full need, CRCL is already leveraging all resources 
at its disposal. Activities in fiscal year 2011 involve planning, 
policy development (including moving to finalize the Department's 
interim Title VI regulations at 6 C.F.R. Part 21), identifying key 
stakeholders and activities, communication, and the beginnings of 
implementation. CRCL is, for example, working with FEMA to identify 
current recipients and sub-recipients of Departmental financial 
assistance. We have begun to develop training on anti-discrimination 
principles and processes for grantees and grant administrators. All 
this should put us in a good position to roll out a fuller program 
beginning fiscal year 2012 that will:
    (1) Establish and implement a training program for grantees and 
        grant administrators, using a variety of delivery methods.
    (2) Develop technical assistance materials.
    (3) Establish and implement system for grantees to self-assess 
        anti-discrimination tools and practices.
    (4) Establish processes for paper-based evaluation of anti-
        discrimination compliance by DHS-supported programs.
    (5) Solidify the process to address allegations of discrimination 
        within DHS supported programs, including outreach, receipt, 
        investigation, resolution.
    (6) Conduct at least several investigations.
    (7) Establish a discretionary process for document-assisted on-site 
        anti-discrimination evaluation of DHS-supported programs.
    Coordination throughout the Department will be accomplished by 
using the DHS Civil Rights/Civil Liberties Council, a new cross-
Department entity chaired by the Officer for Civil Rights and Civil 
Liberties. In addition, a cross-Department Title VI working group will 
identify current compliance activities, share existing expertise in the 
components, and build shared ideas about best practices for reviewing 
and monitoring recipients for compliance with Title VI and related 
statutes. In FEMA activities in particular, FEMA will continue to be 
responsible for complaint investigations of its funding recipients, 
with CRCL functioning as Departmental lead, focusing on coordination, 
policy development, training, and oversight.

                                 <all>

</pre></body></html>
